                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AGREED-UPON PROCEDURES FOR CORPORATION
       GRANTS AWARDED TO THE UNIVERSITY OF
            MARYLAND CENTER ON AGING

                      OIG REPORT 10-05




                         Prepared by:

                   Clifton Gunderson LLP
               11710 Beltsville Drive, STE 300
                   Calverton, MD 20705




This report was issued to Corporation management on October 23, 2009. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
April 23, 2010, and complete its corrective actions by October 23, 2010.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                           OFFICE OF INSPECTOR GENERAL

                                        October 23, 2009


TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       Report 10-05, Agreed-Upon Procedures for Corporation Grants Awarded to the
               University of Maryland Center on Aging

We contracted with the independent certified public accounting firm, Clifton Gunderson LLP, to
perform agreed-upon procedures in its review of a Corporation for National and Community
Service grant awarded to RFCUNY. The contract required the firm to conduct the engagement
in accordance with generally accepted government auditing standards.

Clifton Gunderson is responsible for the attached report, dated March 12, 2009, and the
conclusions expressed therein. We do not express opinions on the Schedule of Award and
Claimed Costs by Grantee/Subgrantees, supporting schedules, and conclusions on the
effectiveness of internal controls; or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision, by the
Corporation, on the findings in this report is due by April 23, 2010. Notice of final action is due
by October 23, 2010.

If you have questions pertaining to this report, please call me at (202) 606-9360 or Jim Elmore
at (202) 606-9354.


Attachment

cc:   Laura Wilson, Chair, Department of Health Services Administration,
        University of Maryland
      Kristin McSwain, Chief of Program Operations
      William Anderson, Acting Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer, for GFFM
      Claire Moreno, Senior Grants Officer, Office of Grants Management
      Bridgette Roy, Audit Resolution Coordinator
      Gregory Hook, Director, Fiscal Compliance Audits, Office of Legislative
        Audits
      Denise Wu, Partner, Clifton Gunderson LLP


                 1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov
                      Senior Corps  AmeriCorps  Learn and Serve America
                     AGREED-UPON PROCEDURES FOR CORPORATION GRANTS
                   AWARDED TO THE UNIVERSITY OF MARYLAND CENTER ON AGING




                                            TABLE OF CONTENTS

                                                                                                               PAGE

EXECUTIVE SUMMARY ................................................................................................. 1

INDEPENDENT ACCOUNTANT’S REPORT .................................................................. 4

CONSOLIDATED SCHEDULE OF AWARD AND CLAIMED COSTS ............................. 5

NOTES TO CONSOLIDATED SCHEDULE OF AWARD AND CLAIMED COSTS ......... 6

SCHEDULE A – SCHEDULE OF AWARD AND CLAIMED COSTS BY
             GRANTEE/SUBGRANTEES .............................................................. 7

SCHEDULE B – SCHEDULE OF AWARD AND CLAIMED COSTS: AREA
             AGENCY ON AGING OF PALM BEACH/TREASURE
             COAST, INC. . ..................................................................................... 8

SCHEDULE C – SCHEDULE OF AWARD AND CLAIMED COSTS: PUEBLO
             OF ZUNI ............................................................................................. 10

SCHEDULE D – SCHEDULE OF FINDINGS ................................................................ 12


ATTACHMENT I: UNIVERSITY OF MARYLAND CENTER ON AGING RESPONSE TO
              DRAFT REPORT

ATTACHMENT II: CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               RESPONSE TO DRAFT REPORT




                                                           i
                                   Executive Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Clifton Gunderson LLP (auditors) to perform agreed-upon
procedures on grant expenditures and compliance with grant terms and provisions
(including compliance with applicable laws and regulations) for Corporation-funded Federal
assistance provided to the University of Maryland Center on Aging (UMCA).

Results

As a result of applying the procedures, the auditors questioned claimed Federal-share costs
of $9,734, education awards of $38,750. For match costs, the auditors questioned $59,956.
A questioned cost is an alleged violation or non-compliance with grant terms and/or
provisions of laws and regulations governing the expenditure of funds; or a finding that, at
the time of testing, adequate documentation supporting a cost item was not readily
available. The results of our agreed-upon procedures are summarized in the Consolidated
Schedule of Award and Claimed Costs.

UMCA claimed total Federal costs of $1,660,909 and total match costs of $833,282 from
September 20, 2006 through September 30, 2008, for grant number 05NDHMD001. Based
on testing a judgmentally selected sample of transactions, the auditors questioned claimed
costs as detailed below:

                                                          Federal    Education    Match
                   Type of Questioned Costs                Share      Award       Share
    Cost Reconciliation                                    $3,745     $      -   $ 18,073
    Unsupported Member Living Allowances                         -           -      1,300
    Administrative Costs                                      629            -          -
    Unallowable Non-Program Cost                              250            -          -
    Eligibility Requirement Not Met                              -       1,250          -
    Unallowable Incentive Costs                                  -           -     40,583
    Criminal Background Check Not Documented or
      Incomplete                                            5,110       13,750          -
    Timesheet Hours Were Not Sufficient to Support
      Hours Certified for Education Awards                      -       13,750          -
    Timesheet Not Signed by Supervisor                          -        1,250          -
    Documentation of End-of-Term Member Evaluation              -        8,750          -
                                                 Totals    $9,734      $38,750    $59,956

Participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards and, in some cases, accrued interest awards funded by the
Corporation’s National Service Trust. These award amounts are not funded by Corporation
grants and thus are not included in claimed grant costs. However, at grant award, and due
to the grant award, these amounts become immediate obligations of the National Service
Trust. Therefore, as part of our agreed-upon procedures and applying the same criteria
used for the grantee’s claimed costs, we determined the effect of our findings on
AmeriCorps members’ entitlement to education and accrued interest awards.

The auditors compared the inception-to-date drawdown amounts with the amounts reported
in the last Financial Status Reports (FSR) for the periods tested and determined that the
drawdowns were reasonable.


                                              1
We questioned education awards of $38,750 mostly because the members lacked criminal
background and/or National Sex Offender checks, lacked support for certified hours of
service, or lacked end-of-term evaluations for their second term of service.

Details of questioned costs and awards appear in the Schedule of Findings that follows.

The results of our agreed-upon procedures included the following instances of non-
compliance with grant provisions, and applicable laws and regulations:

    Lack of controls or controls not implemented over reporting and recording of Federal
     share and match costs, including the lack of reconciliation between the reported
     grant expenditures and accounting records;

    Lack of adequate procedures to ensure program compliance, such as a member
     eligibility, incomplete criminal background checks, signing the member contract after
     the start of service, paying living allowances when the member performed no service
     and prior to signing the contract, unequal payment of living allowances, and FICA not
     deducted from member living allowances;

    Missing timesheets, timesheets not signed by supervisor, late submission of some
     members’ forms, and enrollments prior to having a signed member contract;

    Missing documentation of final end-of-term member evaluations and lack of
     documentation that members attended orientation;

    Lack of documented review of potential subgrantees’ financial systems during pre-
     evaluation; and

    Subgrantee not meeting match requirements.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993 (as amended), awards grants and cooperative agreements to State commissions,
nonprofit entities, and tribes and territories to assist in the creation of full- and part-time
national and community service programs. Through these grantees, AmeriCorps members
perform service to meet educational, human, environmental, and public safety needs
throughout the nation. In return for this service, eligible members may receive a living
allowance and post-service education benefits.

UMCA is organizationally under the Department of Health Services Administration
(UMDHSA) within the School of Public Health and is part of the University of Maryland. The
Chief Operating Officer/Vice Chancellor for Administration and Finance for the University of
Maryland handles the financial functions of UMCA, such as payments to subgrantees and
cash management. The University of Maryland comes under the State of Maryland, which
has been subject to the Single Audit Act and received unqualified opinions on its financial
statements and no findings were identified relating to AmeriCorps funding.

UMCA’s Legacy Corps for Health and Independent Living program is a multigenerational
model of respite service teams comprised of two AmeriCorps members, one over the age of

                                              2
50 and the other between the ages of 16 and 49, who provide the in-home respite care to
frail senior citizens.

UMCA awarded funds to 11 subgrantees (7 nonprofits, 3 Native American Indian tribes, and
the State of Florida) in each of the two program years, 2006-2007 and 2007-2008, covered
in our scope. The subgrantees used the funds to support their operations and provide
member support. The subgrantees maintain supporting documentation for the claimed
costs and member files. UMCA submits its monthly Periodic Expense Report (PER) into the
Corporation’s Web-Based Reporting System (WBRS) and submits its Financial Status
Reports (FSR) for its AmeriCorps grant to the Corporation for inclusion in eGrants. UMCA
prepares the aggregate FSR for the Legacy Corps by accumulating the expenses reported
on subgrantees’ and UMCA’s PERs.

UMCA monitors subgrantees by reviewing member information in WBRS, reimbursement
requests, performing annual Technical Assistance Site Assessment visits and desk audits,
and through regular communication with subgrantees.

UMCA claimed Federal costs, totaling $1,660,909, during the scope of this engagement.

Agreed-Upon-Procedures Scope

The auditors performed the agreed-upon procedures during the period December 10, 2008,
through February 28, 2009. The agreed-upon procedures covered the allowability,
allocability, and reasonableness of financial transactions reported between September 20,
2006, and September 30, 2008, for grant number 05NDHMD001. The auditors also
performed tests to determine compliance with certain grant terms and provisions. The
procedures performed were based on the OIG’s “Agreed Upon Procedures for Corporation
Awards to Grantees (including Subgrantees) dated July 2008.” The engagement focused
on UMCA and two of its subgrantees: Area Agency on Aging of Palm Beach/Treasure
Coast, Inc. (AAA) and the Pueblo of Zuni (Zuni). We tested transactions totaling $46,648 for
UMCA. We also tested transactions totaling $14,752 for AAA and $11,823 for Zuni.

Exit Conference

The draft content of this report was provided and discussed with the Corporation, UMCA,
and applicable subgrantees at an exit conference held on March 12, 2009, at the University
of Maryland, College Park, MD.

UMDHSA responded to the report on behalf of UMCA. UMDHSA disagreed with some
findings and agreed with others; its response to the findings and recommendations in the
draft report are included in Attachment I and summarized after each recommendation. The
Corporation did not respond to the individual findings and recommendations. Its response is
in Attachment II.




                                             3
a1
                                     INDEPENDENT ACCOUNTANT’S REPORT
                                    ON APPLYING AGREED-UPON PROCEDURES


Corporation for National and Community Service
Office of Inspector General

We have performed the procedures enumerated in the agreed-upon procedures listed in the
“Agreed Upon Procedures for Corporation Awards to Grantees (including Subgrantees) dated
July 2008” attached to the Statement of Work CNSIG-08-F-0029 (not included herein), which
were agreed to by Corporation OIG, solely to assist you in evaluating certain information
reported by UMCA in accordance with their Corporation grant terms and provisions, and
applicable laws and regulations, for the period from September 20, 2006 through September 30,
2008. UMCA and its subgrantees, AAA and Zuni are responsible for the accuracy and
completeness of the reported information. This Agreed-Upon Procedures engagement was
conducted in accordance with the attestation standards established by the American Institute of
Certified Public Accountants and Government Auditing Standards, issued by the Comptroller
General of the United States. The sufficiency of the procedures is solely the responsibility of the
Corporation OIG specified in the report. Consequently, we make no representation regarding
the sufficiency of the procedures either for the purpose(s) enumerated in the “Agreed-Upon
Procedures for Corporation Awards to Grantees (including Subgrantees) dated July 2008”
attached to the Statement of Work CNSIG-08-F-0029 or for any other purpose.

Findings noted that resulted from the procedures performed are described in the Schedule of
Findings.

We were not engaged to, and did not, conduct an examination, the objective of which would be
the expression of an opinion on the reported information. Accordingly, we do not express such
an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the OIG, the Corporation, UMCA,
and the U.S. Congress, and is not intended to be, and should not be used by anyone other than
these specified parties.


A1
Calverton, Maryland
March 12, 2009




11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                                           4
                                            Offices in 17 states and Washington, DC   h
                 Consolidated Schedule of Award and Claimed Costs
             Award Period September 20, 2006 through September 30, 2008
               University of Maryland Center on Aging – 05NDHMD001

                                                                                 Reference
Authorized Budget (Corporation Funds)                               $2,266,970   Note 1

Claimed Federal Costs                                               $1,660,909   Note 2

Authorized Match Budget                                             $1,110,911   Note 3

Claimed Match Costs                                                 $ 833,282    Note 4

Questioned Federal Costs:
 Cost Reconciliation                                      $ 3,745                Note 5
 Administrative Costs                                         629                Note 7
 Unallowable Non-Program Cost                                 250                Note 8
 Criminal Background Check Not Documented or Incomplete     5,110                Note 9
              Total Questioned Federal Costs                        $    9,734

Questioned Match Costs:
 Reconciliation                                           $18,073                Note 5
 Member Living Allowances                                   1,300                Note 6
 Unallowable Incentive Costs                               40,583                Note 12
               Total Questioned Match Costs                         $   59,956

Questioned Education Award
 Eligibility Requirement Not Met                          $ 1,250                Note 13
 Criminal Background Check Not Documented or
 Incomplete                                                13,750                Note 9
 Timesheet Hours Were Not Sufficient to Support Hours
 Certified for Education Awards                            13,750                Note 10
 Timesheet Not Signed by Supervisor                         1,250                Note 11
 Documentation of End-of-Term Member Evaluation             8,750                Note 14
              Total Questioned Education Awards                     $   38,750




                                              5
            Notes to Consolidated Schedule of Award and Claimed Costs

Notes

1. The amount as approved budget represents the funding to UMCA according to the grant
   agreement.

2. Claimed costs are UMCA’s reported Federal expenditures for the period September 20,
   2006, through September 30, 2008.

3. The amount as approved match budget represents the funding to UMCA according to
   approved budget reported in WBRS.

4. Claimed costs are UMCA’s reported match expenditures for the period September 20,
   2006, through September 30, 2008.

5. AAA and Zuni claimed $3,745 Federal and $18,073 match costs that were not supported
   by its accounting records (see Finding 1).

6. Zuni claimed $1,300 match costs in member living allowances that were unsupported
   (see Finding 2).

7. AAA claimed $629 in unallowable Federal administrative expense (see Finding 3).

8. Zuni claimed $250 in Federal grant cost that was unallowable because the cost was not
   related to the AmeriCorps Program (see Finding 3).

9. AAA and Zuni had $5,110 in Federal questioned member living allowances, $13,750 in
   questioned education awards due to State criminal registry searches not being
   performed and/or incomplete National Sex Offender Registry searches (see Finding 5).

10. AAA and Zuni had $13,750 in questioned education awards due to missing timesheets
    (see Finding 5).

11. Zuni had $1,250 in questioned education awards due to the supervisor not signing the
    member timesheets (see Finding 5).

12. AAA had $40,583 in match questioned incentive costs that are unallowable (see
    Finding 3).

13. AAA had $1,250 in questioned education awards due to member not meeting eligibility
    requirements (see Finding 5).

14. AAA had $8,750 in Federal questioned education awards due to lack of end-of-term
    evaluation for members who had previously served (see Finding 7).




                                           6
                                                                                           Schedule A

              Schedule of Award and Claimed Costs By Grantee/Subgrantee
                   September 20, 2006, through September 30, 2008

                                                                              Questioned
                                Claimed Costs         Questioned Costs
   Grantee/Subgrantee                                                         Education     Reference
                              Federal     Match       Federal     Match        Awards
 University of Maryland
 Center on Aging             $ 380,165    $187,279    $       -   $     -        $     -
 Area Agency on Aging          174,890      91,411        1,632    40,583         21,250   Schedule B
 Florida Dept of Elder
                                                                                             Note 1
 Affairs                       147,228      54,762            -           -            -
 Alpert Jewish Family &
                                                                                             Note 1
 Children's Service             83,506     100,012            -           -            -
 Lutheran Social Services
                                                                                             Note 1
 of Illinois                   107,416      80,943            -           -            -
 Lutheran Social Services
                                                                                             Note 1
 of Minnesota                  136,836      50,681            -           -            -
 Nevada Rural Counties
                                                                                             Note 1
 RSVP Program                  102,765      51,622            -           -            -
 Pueblo of Isleta              135,058      58,286            -           -            -     Note 1
 Salt Lake County Aging
                                                                                             Note 1
 Services                      131,434      61,299            -           -            -
 Aging and Independence
                                                                                             Note 1
 Services                        88,685     26,677          -           -              -
 Pueblo of Zuni                 101,440     34,188      8,102      19,373         17,500   Schedule C
 Santa Clara Indian Pueblo       71,486     36,122          -           -              -     Note 1
           Totals            $1,660,909   $833,282     $9,734     $59,956        $38,750




1. Transactions at this subgrantee were not tested.




                                                  7
                                                                                Schedule B
                                                                                Page 1 of 2
                      Schedule of Award and Claimed Costs:
           Area Agency on Aging of Palm Beach/Treasure Coast, Inc. (AAA)
                  September 20, 2006, through September 30, 2008

                                                                                Reference
 Authorized Budget (Federal Funds)                                  $182,008    Note 1

 Claimed Federal Costs                                              $174,890    Note 2

 Authorized Match Budget                                            $ 91,411    Note 3

 Claimed Match Costs                                                $ 91,411    Note 4

 Questioned Federal Costs:
   Cost Reconciliation                                    $ 1,003               Note 5
   Administrative Costs                                       629               Note 6
             Total Questioned Federal Costs                         $   1,632

 Questioned Match Costs:
   Unallowable Incentive Costs                            $40,583               Note 7
             Total Questioned Match Costs                           $ 40,583

 Questioned Education Award
   Eligibility Requirement Not Met                        $ 1,250               Note 8
   Criminal Background Check Not Documented or
      Incomplete                                            5,000               Note 9
   Timesheet Hours Were Not Sufficient to Support Hours
      Certified for Education Awards                        6,250               Note 10
   Documentation of End-of-Term Member
      Evaluation                                            8,750               Note 11
             Total Questioned Education Awards                      $ 21,250

Notes

1. The amount as approved budget represents the funding to AAA according to the
   subgrant agreement.

2. Claimed costs are AAA’s reported Federal expenditures for the period September 20,
   2006, through September 30, 2008.

3. The amount as approved match budget represents the funding to AAA according to
   approved budget reported in WBRS.

4. Claimed costs are AAA’s reported match expenditures for the period September 20,
   2006, through September 30, 2008.




                                              8
                                                                            Schedule B
                                                                            Page 2 of 2

5. AAA claimed $1,003 Federal costs that were not supported by its accounting records
   (see Finding 1).

6. AAA claimed $629 in unallowable Federal administrative expense (see Finding 3).

7. AAA had $40,583 in match questioned incentive costs that are unallowable (see
   Finding 3).

8. AAA had a $1,250 questioned education award due to one member not meeting the
   eligibility requirements (see Finding 5).

9. AAA had $5,000 in questioned education awards due to incomplete National Sex
   Offender Registry searches (see Finding 5).

10. AAA had $6,250 in questioned education awards due to missing timesheets (see
    Finding 5).

11. AAA had $8,750 in questioned education awards due to lack of end-of-term evaluations
    for members with prior service (see Finding 7).




                                           9
                                                                               Schedule C
                                                                               Page 1 of 2
                      Schedule of Award and Claimed Costs:
                                  Pueblo of Zuni
           Award Period September 20, 2006 through September 30, 2008

                                                                               Reference
Authorized Budget (Federal Funds)                                  $168,750    Note 1

Claimed Federal Costs                                              $101,440    Note 2

Authorized Match Budget                                            $ 67,113    Note 3

Claimed Match Costs                                                $ 34,188    Note 4

Questioned Federal Costs:
  Cost Reconciliation                                    $ 2,742               Note 5
  Unallowable Non-related Cost                               250               Note 7
  Criminal Background Check Not Documented or
    Incomplete                                           $ 5,110               Note 8
            Total Questioned Federal Costs                         $   8,102

Questioned Match Costs:
  Reconciliation                                         $18,073               Note 5
  Member Living Allowances                                 1,300               Note 6
             Total Questioned Match Costs                          $ 19,373

Questioned Education Award
  Criminal Background Check Not Documented or
    Incomplete                                           $ 8,750               Note 8
  Timesheet Hours Were Not Sufficient to Support Hours
    Certified for Education Awards                         7,500               Note 9
  Timesheet Not Signed by Supervisor                       1,250               Note 10
           Total Questioned Education Awards                       $ 17,500




                                            10
                                                                           Schedule C
                                                                           Page 2 of 2

Notes

1. The amount as approved budget represents the funding to Zuni according to the grant
   agreement.

2. Claimed costs are Zuni’s reported Federal expenditures for the period September 20,
   2006, through September 30, 2008.

3. The amount as approved match budget represents the funding to Zuni according to
   approved budget reported in WBRS.

4. Claimed costs are Zuni’s reported match expenditures for the period September 20,
   2006, through September 30, 2008.

5. Zuni claimed $2,742 Federal and $18,073 match costs that were not supported by its
   accounting records (see Finding 1).

6. Zuni claimed $1,300 match costs in member living allowances that were unsupported
   (see Finding 2).

7. Zuni claimed $250 in unrelated Federal grant costs that was unallowable (see
   Finding 3).

8. Zuni had $5,110 in Federal questioned member living allowances, $8,750 in questioned
   education awards due to State criminal registry searches not being performed and
   incomplete National Sex Offender Registry searches (see Finding 5).

9. Zuni had $7,500 in questioned education awards due to missing timesheets (see
   Finding 5).

10. Zuni had $1,250 in a questioned education award because the supervisor had not
    signed the member timesheets (see Finding 5).




                                          11
                                                                                              Schedule D
                                              Schedule of Findings


Finding 1 - Lack of controls over reporting of Federal and match costs

Cost Reconciliation

The UMCA did not establish written policies and procedures requiring its subgrantees to
perform a reconciliation of the financial information maintained in their accounting systems
with the PERs submitted to UMCA and the Corporation through WBRS. As a result, the
subgrantees we reviewed, AAA and Zuni, were unable to reconcile their accounting records
with claimed costs for the period September 20, 2006 to September 30, 2008.

We found differences between the PERs and the subgrantees’ accounting records, as
follows:

                    Program          PER          GL        Federal        PER        GL         Match
Subgrantee            Year          Federal     Federal    Difference     Match     Match      Difference
                   2006-2007        $91,004      $90,001       $1,003    $44,798   $112,218     ($67,420)
       AAA         2007-2008 1      $83,886      $87,091      ($3,205)   $46,613    $51,506      ($4,893)
                     Totals        $174,890     $177,092      ($2,202)   $91,411   $163,724     ($72,313)
                   2006-2007        $65,721      $63,021       $2,700    $28,455    $11,568      $16,887
       ZUNI        2007-2008 2      $35,719      $35,677          $42     $5,733     $4,547        $1,186
                     Totals        $101,440      $98,698       $2,742    $34,188    $16,115      $18,073

AAA’s Federal costs claimed in the PERs were more than the amount supported by its
accounting records by $1,003 for program year 2006 to 2007. It was also noted that AAA’s
accounting reports for the match costs far exceeded the monthly costs reported in the PER
in most cases. Further discussions with AAA confirmed that the same fund account used to
support this grant was also used to support other programs. However, AAA was unable to
provide an accounting report that breaks out the match costs that relates just to the
Corporation grant. Consequently, we were unable to determine the match costs. As of
March 12, 2009, the date of the exit conference, AAA was still working on providing this
information.

Zuni’s Federal costs claimed in the PERs were more than the amount supported by its
accounting records by $2,700 and $42 for PYs 2006-2007 and 2007-2008, respectively.
Match costs claimed in the PERs were more than the amount supported by Zuni’s
accounting records by $16,887 and $1,186 for PYs 2006-2007 and 2007-2008, respectively.
It should be noted that due to the lack of a detailed reconciliation, we were unable to
determine if these questioned costs were a duplication of what was noted in the other
findings that follow. In addition, Zuni did not provide the auditors with the accounting report
they requested for March 2008 for the match costs for PY 2006-2007. Instead, Zuni
provided a summary spreadsheet indicating that it had incurred match costs of $15,287
related to supplies, membership training, and travel. However, none of these costs was
reflected in the match cost transaction listings that were provided to the auditors to
represent the match costs incurred by Zuni in support of this grant for the period under

1
    Information provided was as of 9/30/08.
2
    Information provided was as of 9/30/08.


                                                      12
review. As a result, we were unable to include those match costs as part of our match cost
testing.

We questioned Federal costs totaling $3,745 (AAA $1,003 and Zuni $2,700 for PY
2006-2007 and Zuni $42 for PY 2007-2008). Total questioned match cost for Zuni is
$18,073.

Criteria:

AmeriCorps General Provisions (2007 ed.), Section V.B.1., Financial Management
Standards, states in part:

         The grantee must maintain financial management systems that include
         standard accounting practices, sufficient internal controls, a clear audit trail
         and written cost allocation procedures, as necessary. Financial management
         systems must be capable of distinguishing expenditures attributable to this
         grant from expenditures not attributable to this grant. The systems must be
         able to identify costs by programmatic year and by budget category and to
         differentiate between direct and indirect costs or administrative costs. Further
         details about the grantee's financial management responsibilities can be
         found in OMB Circular A-102, Grants and Cooperative Agreements with State
         and Local Governments, and its implementing regulations (45 C.F.R. §2543)
         or OMB Circular A-110, Uniform Administrative Requirements for Grants and
         Agreements With Institutions of Higher Education, Hospitals, and Other Non-
         Profit Organizations, and its implementing regulations (45 C.F.R. §2541), as
         applicable.

Recommendations:

We recommend that the Corporation:

   1a.      Resolve questioned costs of $3,745 in Federal and $18,073 in match costs and
            recover any disallowed costs.

   1b.      Ensure that UMCA develops and implements financial reconciliation requirements
            for subgrantees and monitors to ensure that the subgrantees’ financial information
            is reconciled to their submitted PERs.

   1c.      Ensure that UMCA requires its subgrantees to adjust their accounting systems to
            be able to track and report on grant expenditures (i.e., federal and match) incurred.
            In addition, the Corporation should work with UMCA to obtain a reconciliation of the
            costs incurred in its subgrantees’ accounting system and the costs claimed to the
            corporation grant.

   1d.      Work with UMCA to resolve the discrepancies between the reported claimed
            Federal and match costs and its accounting records after the reconciliation is
            performed and reviewed for its reasonableness.

   1e.      Perform testing of Zuni’s $15,287 in match costs that the auditors could not review
            due to Zuni’s late disclosure of those expenses.



                                                13
UMDHSA’s Response

UMDHSA indicated that the subgrantees provided documentation for the questioned
Federal amount of $1,003 for AAA and $1,328 for Zuni in UMDHSA’s March 23, 2009
response report to the auditors.       Zuni in January 2009 also submitted additional
documentation to the auditors supporting the cost of an additional $11,568 in questioned
match. This information will be submitted separately to Corporation. AAA’s match costs for
the Corporation grant are now tracked in a separate account to avoid future questioned
costs. UMDHSA terminated the Zuni grant in April 2009. This was after two years of on-
going technical assistance and corrective action measures to increase program compliance
with both fiscal and program issues. The core issue for Zuni revolved around continuous
staff turnover in both the program and fiscal departments, making it difficult to consistently
meet compliance standards. The same is documented in numerous UMDHSA monitoring
reports prior to Zuni’s termination.

UMDHSA indicated that it has always audited and reconciled financial records of
subgrantees during its annual monitoring visits. Additionally, subgrantee sites are required
to reconcile their monthly PER in conformance to UMDHSA Policy #11. UMDHSA stated
that it also provided extensive financial training every other year at its own National Direct
Training through Walker and Company. Training was provided in 2006 (January 22-24) and
2008 (May 12-14). All participants received training workbooks for future reference. Topics
included financial reconciliation and accounting records/systems. All sites are required to
code AmeriCorps funds separately from other funding sources. All fiscal employees of
subgrantees are required to attend these training events. To augment its on-going financial
training and onsite monitoring visits, UMDHSA also committed to writing its internal policy on
financial reconciliation titled "Fiscal Reconciliation of Periodic Expense Reports.” The policy
was written in March of 2009 and disseminated to all Site Directors on March 18, 2009.
Policy #11 has been sent to the Corporation under separate cover. UMDHSA stated that
additional desktop audits are conducted for "at-risk" sites based on compliance standards.

Auditors’ Comments

The Corporation should follow up on the information to be provided by the subgrantees to
UMCA to resolve the questioned Federal and match costs. Based on the information
provided to us, we were unable to resolve the questioned costs noted above in the finding.
The cost information related to $15,287 in match costs was not initially disclosed to the
auditors when Zuni was requested to provide transaction data for the period being reviewed.
The Corporation should ensure that a full reconciliation, and not just one PER for the grant
year, is performed at the time of UMCA’s annual monitoring visits.


Unmet Match Requirements

Zuni’s PER, as of September 30, 2008, for PY 2007-2008, shows that it did not meet match
amounts required by UMCA, as follows:




                                              14
                                       Actual     Percentage      Match Cost       Percentage of
                                        Cost      of Total Cost   Requirement       Total Cost
Section I. Operating costs              $ 5,733      29.2%              $24,069        54.9%
Section II. Member Support Costs              -      00.0%               12,918        16.7%
Section I. & II. Total Cost             $ 5,733      13.8%              $36,987        30.5%

Zuni stated that it did meet the match requirements, but that it had incorrectly reported
match costs as Federal costs. We were unable to confirm that this was the case or that
corrections had been made.

By not meeting its match requirements, Zuni’s program could be adversely affected by the
lack of financial support. In addition, Zuni is also placing UMCA at risk of not meeting the
matching requirements for the overall grant. Zuni’s grant document, awarded by UMCA,
mandates these match costs, which were reflected in the application proposal for PY 2007-
2008.

Criteria:

The subgrantee award for Zuni included an application proposal for PY 2007-2008, which
included match amounts, as follows:

   a. Operating costs of 54.9 percent of total operating costs for a total of $24,069,
   b. Member support of 16.7 percent of total member support cost for a total of $12,918,
      and
   c. Overall cost share of 30.5 percent of total costs for a total of $36,987.

Recommendation:

   1f.      We recommend that the Corporation ensure that UMCA continues to monitor and
            provide training to its subgrantees (i.e., how to reconcile its financial records to its
            PERs) to ensure that Federal and match costs are reported correctly and that
            subgrantees are monitoring their matching costs to ensure that they will meet their
            minimum requirements.

UMDHSA’s Response

UMDHSA stated that it provides a continuous training program to strengthen all
subgrantees. It has conducted annual UMDHSA National Training events since 2001.
Every other year, the training primarily focuses on fiscal issues, and UMCA requires all
subgrantee fiscal staff to attend. In both 2006 (January 22-24) and 2008 (May 12-14),
UMDHSA engaged the services of Walker and Company to provide extensive fiscal training.
Participants received their own workbook as a quick desktop reference. Topics included,
fiscal reconciliation of PERs, capturing and reporting financial match (all aspects), national
audit findings, reporting in-kind contributions, building strong budgets, building internal
accounting systems, time and activity reporting, member eligibility, closing out fiscal years,
preparing FSRs, reconciling the grant, etc. These topics for fiscal training were first
identified by UMDHSA through its own annual monitoring site visits. Subsequently,
UMDHSA requested that a training and assistance provider (Walker and Company) to assist
on these issues. UMDHSA asked that this finding be removed.




                                                  15
Auditors’ Comments

The Corporation should ensure that UMDHSA continues to monitor and provides the training
that addresses those areas referred to in the recommendation.


Financial Status Report Indirect Expense

UMCA did not properly report the amounts included on line 11, Indirect Expense, on four
FSRs covering October 1, 2006 through September 30, 2008. We specifically noted the
following:

      For the FSR covering October 1, 2006 to March 31, 2007, UMCA reported only the
       Federal indirect cost and did not account for total indirect cost on line 11d. The total
       amount of indirect cost reported on line 11d was the same as the $19,307 Federal
       share amount on line 11e. Based on UMCA’s financial records for the reporting
       period, UMCA only incurred $3,852 in federal indirect expense. UMCA overstated its
       Federal indirect expense by $15,455.

      For the FSR covering April 1, 2007 to September 30, 2007, UMCA reported only the
       Federal indirect cost and did not account for total indirect cost on line 11d. The total
       amount of indirect cost reported on line 11d was the same as the $19,307 Federal
       share amount on line 11e. In addition, it reflected the same amount reported in the
       previous FSR. Based on UMCA’s financial records for the reporting period, UMCA
       only incurred $4,985 in federal indirect expense. UMCA overstated its Federal
       indirect expense by $14,322.

      For the FSR covering October 1, 2007 to March 31, 2008, UMCA reported the base
       direct cost on line 11c as $5,879,721, yet the grant was just over $3 million. UMCA
       reported only the Federal indirect cost and did not account for total indirect cost on
       line 11d. The total amount of indirect cost reported on line 11d was the same as the
       $31,388 Federal share amount on line 11e. Based on UMCA’s financial records for
       the reporting period, UMCA only incurred $4,338 in federal indirect expense. UMCA
       overstated its Federal indirect expense by $27,053.

      For the FSR covering April 1, 2008 to September 30, 2008, UMCA reported only the
       Federal indirect cost and did not account for total indirect cost on line 11d. The total
       amount of indirect cost reported on line 11d was the same as the $9,577 Federal
       share amount on line 11e. Based on UMCA’s financial records for the reporting
       period, UMCA only incurred $6,652 in federal indirect expense. UMCA overstated its
       Federal indirect expense by $2,925.

UMCA did not comply with FSR reporting instructions on indirect costs because its staff did
not fully understand what the form requires. In addition, the Corporation should have
discovered these reporting errors when it reviewed the submitted FSRs.




                                             16
Criteria:

The instructions for the FSR Standard Form 269A for line 11 state the following:

         11b. Enter the indirect cost rate in effect during the reporting period.
         11c. Enter the amount of the base against which the rate was applied.
         11d. Enter the total amount of indirect costs charged during the report period.
         11e. Enter the Federal share of the amount in 11d.

         Note: If more than one rate was in effect during the period shown in item 8
         (Funding/Grant Period), attach a schedule showing the bases against which
         the different rates were applied, the respective rates, the calendar periods
         they were in effect, amounts of indirect expense charged to the project, and
         the Federal share of indirect expense charged to the project to date.

Recommendations:

We recommend that the Corporation:

   1g.      Work with UMCA to correct existing FSRs and to ensure a firm understanding of
            requirements so that the indirect cost information will be reported properly when
            UMCA starts using the Federal Financial Report (SF-425) in place of the current
            FSR.

   1h.      Adequately review the Federal Financial Report, formerly the FSR, for reporting
            errors and takes corrective action to address errors.


UMDHSA’s Response

UMDHSA is now reporting under the new Federal Financial Report (FFR), which replaced
the FSR. The new FFR reporting instructions provide much more detailed instructions for
completion than the former FSR. Requests had been initiated and responded to regarding
former submitted FSRs through the Corporation. Clarification was provided to the auditor
regarding the UMDHSA FSR Reports. UMDHSA stated that it would work collaboratively
with its internal office of grants management and Corporation staff to effect any reporting
changes or integrate any new instructions to ensure accurate FFR reporting. FSRs/FFRs
are reviewed and approved by UMDHSA’s grants management office. UMDHSA indicated
that there were no items of non-compliance or fiscal weakness identified. UMDHSA does
not believe that a systemic or on-going problem exists and that these items should be
removed.

Auditors’ Comments

At the time of our review, UMCA was unable to explain and resolve the discrepancies noted
in the FSRs. Although UMDHSA indicates that it has a better understanding of the indirect
cost reporting requirements under the new FFR, the Corporation should ensure that
UMDHSA has a clear understanding of those requirements. The Corporation should also
review FFRs for reporting errors and take corrective action when errors are noted.




                                               17
Finding 2 – Unsupported costs related to member living allowances and fringe
benefits

Unsupported Member Living Allowances

We selected two random bi-weekly pay periods for testing Zuni’s member living allowances
during the period September 20, 2006 to September 30, 2008. We tested four members
that were paid in those pay periods and found that one member received a payment before
the member’s contract was signed and there was no timesheet reflecting that the member
had served. Therefore, the member (Zuni #04) was not entitled to receive a payment of
$100 in match funds. Zuni pays each member’s living allowance using either Federal funds
or match funds, but not a combination of both.

In addition, the amount of claimed match member living allowance on the March 31, 2008
PER for program year 2006-2007 was greater than the amount supported by the accounting
records by $1,200. Zuni indicated that it had found documentation to support some of the
payments made, but we determined that the documentation was unacceptable.

Criteria:

Member enrollment procedures in the 2006 and 2007 grant provisions, Section IV C.1.a.,
states, “An individual is enrolled as an AmeriCorps member when all of the following has
occurred: (1) he or she has signed a member contract; (2) the program has verified the
individual's eligibility to serve; (3) the individual has begun a term of service; and (4) the
program has approved the member enrollment form in WBRS.”

Recommendations:

We recommend that the Corporation:

   2a.      Resolve questioned match costs of $1,300.

   2b.      Ensure that UMCA revises subgrantee procedures to ensure that, prior to making a
            member living allowance payment, payroll staff has received written confirmation
            that the member has been enrolled.

UMDHSA’s Response

UMDHSA indicated that this was an isolated incident. Zuni staff did receive self-attestation
statements that members did perform service during the periods questioned. UMDHSA
believed the error occurred because of program staff turnover and was not a matter of non-
service delivery to the client or false claims. The caregiver family did receive the service,
but it was not documented properly. These items were also identified by UMDHSA as part
of its onsite monitoring visit and documented in its written reports. Due to on-going fiscal
and program staff-turnover and consistent reporting problems (over a three-year period),
UMDHSA terminated the Zuni contract in April 2009. Zuni employees were always well-
intended and always provided UMDHSA staff verbal and written confirmation when
documentation did not meet the assessed standard. Corrective action plans were written by
Zuni, and reviewed and approved by UMDHSA staff. However, repetitive staff turnover
resulted in cycles of documented progress followed by cycles of relapses in file
documentation.


                                              18
UMDHSA indicated that it does require that the program supervisor or designee self-certify
each month to the fiscal unit that member specific service and training has occurred during
the month and that payment is approved. A review of past UMDHSA monitoring reports
document this process as an internal control between program and fiscal as fiscal only cuts
the checks and must rely on program staff to validate accurate time and service
logs/approval. This approval is based on the member time and service activity logs that are
signed and dated by the member and supervisor. The documentation of this practice is
referenced both on the UMDHSA Member Profile Documentation form as well as Project
and Member’s Handbook, page 58 (Submitting Your Time Sheets and Service Logs). The
Member Profile Documentation form was revised in early 2009 to include two parts:
Member Pre-Enrollment Check and Member End of Term Checklist. It was disseminated to
all subgrantees. A copy of the revised check-list has been sent to the Corporation
separately. UMDHSA indicated that this finding should be removed.

Auditors’ Comments

The procedure referred to by UMDHSA did not include a requirement to confirm enrollment
prior to payment as indicated in the recommendation; therefore, the Corporation should
ensure that procedures are in place to address this issue.


Unsupported Fringe Benefit Costs

For PY 2007-2008, Zuni claimed fringe benefits in Section I. Program Operating Costs of its
PER, dated September 1, 2008, in excess of Zuni’s approved AmeriCorps budget. A Zuni
representative stated that it had inadvertently reported member living allowances in Section
I of the PER instead of in Section II Member Costs. Although Zuni indicated that a
correction was made in the October 2008 PER to report the cost in Section II, it did not
provide the auditors with the documentation to show that the correction had been made or
that it was appropriate.

The AmeriCorps budget is a combination of the Corporation’s Federal share and Zuni’s
share. Zuni claimed costs for fringe benefits that exceeded the Federal budget ($1,535) by
$998 and the combined budget ($2,627) by $274. The Federal budget was exceeded by
$998.

                                      Budget       Actual Difference
                         Federal       $1,535       $2,533   ($ 998)
                          Match         1,092          368       724
                         Totals        $2,627       $2,901   ($ 274)

Criteria:

OMB Circular A-110, § 215.21, Standards for financial management systems, applies to
UMCA as the grantee. It states, in part: “(b) Recipients’ financial management systems
shall provide for the following. (1) Accurate, current and complete disclosure of the financial
results of each federally-sponsored project or program . . . .” In order for UMCA to comply,
Zuni must also report accurately.




                                              19
Recommendation:

   2c.      We recommend that the Corporation ensure that UMCA determines whether Zuni
            made an appropriate adjustment.

UMDHSA’s Response

UMDHSA indicated that the salary and member living allowance cost breakdown and fringe
benefits are calculated on a Zuni spreadsheet that is used to report the information on the
PER.

Auditors’ Comments

UMDHSA’s response did not indicate that it verified that Zuni had made an appropriate
correction in the October 2008 PER for the cost reported in Section II. The Corporation
should follow up with UMDHSA to determine whether Zuni made an appropriate adjustment.


Finding 3 – Unallowable incentive costs, Federal administrative costs and non-related
costs

Unallowable Incentive Costs

We selected a sample of 20 AAA match cost transactions from the period of September 20,
2006 to September 30, 2008. For 18 out of 20 transactions tested, we noted that
18 incentive payments made to quarter term members of $100 each were not allowable
under the grant provision and the Code of Federal Regulations. These incentive payments
were made by checks to the members. AAA described these payments as incentive costs
and to offset reasonable and anticipated expenses incurred while volunteering (i.e.,
transportation, tolls, parking fees and meals) and is not to be considered as an hourly wage
based on hours of service. It was later determined that a total of $36,894, $35,261
applicable to PY 2007-2008, in incentive payments were made to all members during the
period under review. We questioned these incentive costs. Questioned administrative costs
associated with these costs are $3,689. The total questioned costs are $40,583 (i.e.,
incentive payments plus administrative costs). Given that these are unallowable match
costs, AAA may not meet its overall match requirement of $46,613 for PY 2007-2008 as
required by the subgrant after removing $35,261 in unallowable costs associated with that
program year.

We were advised that AAA and UMCA believed that such incentive payments were
acceptable in the form of match cost and that such costs had been discussed with
Corporation grant officials. We were advised by UMCA that incentive costs were not
included in the PY 2006-2007 budget. However, they were included in the budget in
eGrants for PY 2007-2008, and the budget was reviewed and authorized by the
Corporation.

Criteria:

The AmeriCorps Grant Provisions Section IV, J and I covering the PYs 2006-2007 and
2007-2008 provides a financial benefit in the form of a member living allowance and a post



                                            20
education award for quarter-term members. In addition, 45 C.F.R. 2522.220, 240-250
states the financial benefits for quarter-term participants include the living allowances and
the education awards.

Recommendations:

We recommend that the Corporation:

   3a.   Closely scrutinize the grantee-submitted budget to ensure that inappropriate costs
         are not included.

   3b.   Resolve questioned match costs of $40,583 and determine whether other
         unallowable incentive costs were charged to the grant over the entire grant period,
         and if so, resolve those costs.

   3c.   Ensure that UMCA strengthens its subgrantee requirement to comply with the
         AmeriCorps grant provisions related to member benefits.

UMDHSA’s Response

UMDHSA indicated that the incentive payments with AAA were isolated incidents. Prior to
2005-2006, UMDHSA stated that AAA always met its match requirements without including
any incentive money as match. The match money in question was provided by a local
foundation to support member activities. All members were identified in the grant as without
a living allowance. UMDHSA staff believed that as long as the match money was in direct
support of the members (as provided through Walker and Company Training), it would be an
allowable match cost.

UMDHSA indicated that there was sufficient match to replace the outstanding amount for
2006-2007, but since the records are closed, it had no way to replace the match.

Regarding the 2007-2008 questioned match amount of $35,261, this grant year was still
open during the audit period. AAA submitted a revised budget amendment to UMDHSA
removing the "incentive" match in Section I., "other". Previously documented unclaimed
"personnel/fringe" expenses and other items were increased to offset the cost. The total
overall budgeted and contributed match met the required $46,613. Validation of the 2007-
2008 contributed match is referenced in the final March 21, 2009 PER submitted via WBRS.
UMDHSA is requesting that the $35,261 in questioned 2007-2008 match be dismissed.

UMDHSA stated that AAA now (Program Year 2008-2009) correctly shows the money from
the foundation as match under the "Living Allowance" line item versus "other." A copy of the
AAA eGrants 2008-2009 Budget is being sent to the Corporation separately that shows
Member Living Allowances amounting to $61,100. UMDHSA did not understand the rule
that no other incentive of any kind (gas cards, grocery gift certificates, etc.) could be granted
to its members. UMDHSA subsequently requested written technical assistance from the
Corporation grant office that provided additional clarification. While there are some "grey
areas" in terms of what is considered an incentive, UMDHSA staff advised AAA that all
future members must receive an actual living allowance to avoid any appearance of conflict.
UMDHSA indicated that all 10 of the other Legacy Corps sites do provide member living
allowances, which are correctly documented in their budgets and narratives.



                                               21
UMDHSA indicated that the issue with AAA was an isolated incidence and that all other
AmeriCorps sites are in full compliance, with member living allowances meeting the Federal
requirements for match. UMDHSA indicated that this issue would be covered again in its
National Direct Training that will be held on January 21-23, 2010, in Scottsdale, Arizona, as
well as validated through the UMDHSA monitoring process that occurs annually for all
AmeriCorps sites. UMDHSA requested that this finding be removed.

Auditors’ Comments

The Corporation should closely scrutinize the grantee-submitted budget to ensure that
inappropriate costs are not included. With regard to the questioned match costs, it was
indicated in a previous finding that the auditors were unable to confirm what match costs
were applicable to the Corporation grant. As a result, the Corporation should ensure that
the reported additional match costs are applicable to the grant. The Corporation needs to
resolve the questioned costs for the 2006-2007 period and should look into the grant period
that was not addressed within the scope of this audit. It appears that UMDHSA has taken
steps to ensure subgrantee compliance with the AmeriCorps grant provisions related to
member benefits, but the Corporation needs to follow up on UMDHSA’s actions.


Unallowable Federal Administrative Costs

AAA claimed excess Federal administrative costs, totaling about $629, for the period
September 20, 2006 to September 30, 2008. These costs were in excess of the
5.26 percent limitation that applied to total Federal direct costs in each of the program years.
We applied the limitation to AAA’s direct costs that it reported on its PERs, as of March 31,
2008 for PY 2006-2007 and as of September 30, 2008 for PY 2007-2008, as follows.

                                                         PY 2006-2007      PY 2007-2008
     Section I Costs                                         $ 85,868          $   78,987
     Section II Costs                                        $     349         $      349
     Total Sections I & II                                   $ 86,217          $   79,336

     Section III Administrative Costs                         $    4,787       $     4,550

     Calculated Admin. Costs at 5.26% of Section I&II         $    4,535       $     4,173

     Unallowable Administrative Costs                         $      252       $       377

UMCA issued a subgrant and modifications for each program year to AAA. AAA did not
properly calculate the reported Federal administrative costs for each program year due to
human error. As a result, AAA claimed $252 and $377 in Federal administrative costs in
excess of what was allowable in PYs 2006-2007 and 2007-2008, respectively.

AAA advised us that it had amended its costs for the PY 2007-2008 subgrant (still an active
subgrant) to remove the questioned amount of $377 in administrative costs. The grant for
PY 2006-2007 was closed, and AAA believes it cannot recoup or reallocate the questioned
cost of $252. We were unable to verify that AAA had taken corrective action on either
amount.




                                              22
Criteria:

Pursuant to 45 C.F.R. § 2521.95(a) and grant provisions Section V, C covering PYs
2006-2007 and 2007-2008, state that, ”Not more than five percent of the grant funds
provided under this part for any fiscal year may be used to pay for administrative costs.” In
order to achieve this percentage, the total direct cost must be multiplied by 5.26 percent to
determine the administrative cost. The administrative cost will then be 5 percent of the total
cost (including administrative cost). UMCA incorporated the Corporation’s general grant
provisions in the grants made to it subgrantees. Therefore, the subgrantees should also
comply with the general grant provisions stated above.

Recommendation:

   3d.      We recommend that the Corporation resolve questioned Federal costs of $629 and
            recover any disallowed costs. In addition, the Corporation should ensure that
            UMCA establishes controls to verify that subgrantees’ administrative costs are
            properly calculated and reported.

UMDHSA’s Response

UMDHSA indicated that AAA submitted an amended budget for 2007-2008 (still an active
grant during the audit process) to remove the questioned amount of $377 in Section III. The
amended WBRS 2007-2008 budget amendment, being sent to the Corporation under
separate cover, confirms that AAA actually reduced Section III. UMDHSA asked that the
2007-2008 questioned amount of $377 be dismissed. The grant year for 2006-2007 has
closed and the amount identified ($252) cannot be recouped or reallocated. The overall
amount claimed for both years was correctly computed (overall administrative match). It
was only the allocation of that amount between the grantee and the Corporation that was
incorrectly computed. This one-time error should not occur in the future. UMDHSA
indicated that it does have internal controls to calculate the administrative costs that are
allowed in Section III. The instructions for the administrative calculation are set forth in the
Corporation’s and UMDHSA’s annual budget instructions (e.g., 10% versus .0526%). The
error was limited to the amount being posted in the wrong column in the budget.
Administrative costs are part of the minimum fiscal standards in the UMDHSA Monitoring
Tool and are assessed on site.

Auditors’ Comments

The Corporation should confirm AAA’s adjustment for the 2007-2008 questioned costs and
resolve the costs associated with the questioned 2006-2007 costs. The controls referred to
by UMDHSA are instructions provided to the subgrantees. Those instructions do not
address what UMDHSA will do, outside of its normal onsite monitoring activities, to confirm
that subgrantees are complying with those instructions in calculating their administrative
costs.


Unallowable Non-Program Cost

We reviewed 14 Zuni direct-cost transactions for the period September 20, 2006 through
September 30, 2008. For one transaction tested, we determined that $250 was an incorrect
charge to the AmeriCorps grant because it did not relate to the purpose of the grant and was


                                              23
not included in the budget for Zuni. The invoice was for a $250 registration fee for a staff
member to attend the 2006 National Indian Council on Aging Biennial Conference. The cost
was unrelated to, and incorrectly charged to, the AmeriCorps grant due to human error. The
correct account number to be charged was on the invoice, but was changed by the
accountant who entered the charge into the accounting system.

Criteria:

Corporation regulations at 45 C.F.R. Subpart C, Post-Award Requirements, § 2543.21
Standards for financial management systems, states in part:

         (b) Recipients' financial management systems shall provide for the following.
             (1) Accurate, current and complete disclosure of the financial results of
                 each federally-sponsored project or program in accordance with the
                 reporting requirements set forth in §2543.51…
             (2) Records that identify adequately the source and application of funds
                 for federally-sponsored activities.     These records shall contain
                 information pertaining to Federal awards, authorizations, obligations,
                 unobligated balances, assets, outlays, income and interest.
             (3) Effective control over and accountability for all funds, property and
                 other assets. Recipients shall adequately safeguard all such assets
                 and assure they are used solely for authorized purposes.

   OMB Circular A-87 Cost Principles for State, Local, and Indian Tribal Governments,
   §C.1. a. states that for costs to be allowable under Federal awards, they must be
   necessary and reasonable for proper and efficient performance and administration of
   Federal awards.

   There are no indications that this erroneous transaction was systemic; therefore, the
   recommendation is limited to questioning the unallowable cost.

   Recommendation:

   3e.      We recommend that the Corporation resolve the Federal questioned cost of $250.

UMDHSA’s Response

UMDHSA indicated that Zuni agreed that it incorrectly charged the AmeriCorps Grant $250
for a registration fee to attend the National Indian Council Biennial Conference. This error
was attributed to fiscal staff turnover. The new accountant did not go back and check
previously submitted PERs. UMDHSA indicated that the Zuni attendee did informally share
information about the AmeriCorps Program while attending, but was not officially in the
Program Guide. UMDHSA believes that this cost should be dismissed.

Auditors’ Comments

The cost remains unallowable; therefore, the Corporation should still resolve the questioned
cost.




                                              24
Finding 4 – Lack of documented review of potential subgrantee’s financial systems
during pre-selection evaluation

We reviewed two currently funded subgrantees (Santa Clara Pueblo and Pueblo of Isleta) to
test UMCA’s subgrantee pre-selection evaluation process to determine if reference was
made to the subgrantee’s financial system for the period September 20, 2006 to September
30, 2008. For both subgrantees, the pre-selection evaluation documentation maintained by
UMCA did not address the subgrantees’ financial systems. The UMCA did not have a
formal process in place that included a pre-selection evaluation that reviewed or considered
the subgrantees’ financial systems. It was noted that UMCA had updated their process after
these reviews to include a section to address the subgrantee’s financial system. However,
the updated process does not fully address the financial system requirements under Federal
regulations. By not specifically addressing the subgrantees’ financial system capabilities,
UMCA could award grants to subgrantees that do not have the financial capability to
properly administer the grants, which increases the potential risk of accounting and reporting
errors.

UMCA indicated that the University of Maryland conducted financial reviews on these
subgrantees. These reviews involved the use of a “Subrecipient Profile” form. However,
management did not provide documentation of the review performed on the two
subgrantees in question. In addition, the “Subrecipient Profile” form is a self-reporting
questionnaire that only requires yes or no responses. The form also asks whether the
subrecipient has certain policies and procedures (i.e., personnel, travel, and purchasing)
and to describe the method used to support the labor and benefit charges. The following
two questions address, in general, the financial system requirements:

    Do you have a financial management system that provides records that can identify
     the source and application of funds for award supported activities?
    Do you have a financial management system that provides for the control and
     accountability of project funds, property, and other assets?

The “Subrecipient Profile” form does provide some information, but does not provide enough
assurance that the subrecipient can meet the financial management system requirements.
Specifically, it does not address financial reporting and budget controls.

Criteria:

Corporation regulations at 45 C.F.R. Subpart C, Post-Award Requirements, § 2543.21
Standards for financial management systems, states in part:

       (b) Recipients' (grantee/subgrantee) financial management systems shall
           provide for the following.
           (1) Accurate, current and complete disclosure of the financial results of
               each federally-sponsored project or program in accordance with the
               reporting requirements set forth in §2543.51…
           (2) Records that identify adequately the source and application of funds
               for federally-sponsored activities.     These records shall contain
               information pertaining to Federal awards, authorizations, obligations,
               unobligated balances, assets, outlays, income and interest.




                                             25
           (3) Effective control over and accountability for all funds, property and
               other assets. Recipients shall adequately safeguard all such assets
               and assure they are used solely for authorized purposes.

Corporation regulations at 45 C.F.R. Subpart C, Post-Award Requirements, § 2541.200
Standards for financial management systems, states in part:

        (b) The financial management systems of other grantees and subgrantees
            must meet the following standards:
            (1) Financial reporting. Accurate, current and complete disclosure of the
            financial results of financially assisted activities must be made in
            accordance with the financial reporting requirements of the grant or
            subgrant.
            (2) Accounting records. Grantees and subgrantees must maintain
            records which adequately identify the source and application of funds
            provided for financially- assisted activities. These records must contain
            information pertaining to grant or subgrant awards and authorizations,
            obligations, unobligated balances, assets, liabilities, outlays or
            expenditures, and income.
            (3) Internal control.     Effective control and accountability must be
            maintained for all grant and subgrant cash, real and personal property,
            and other assets. Grantees and subgrantees must adequately safeguard
            all such property and must assure that it is used solely for authorized
            purposes.
            (4) Budget control. Actual expenditures or outlays must be compared
            with budgeted amounts for each grant or subgrant.

Recommendation:

   4.    We recommend that the Corporation ensure that UMCA revises the “Subrecipient
         Profile” form to:

              request the policies and procedures to verify that they do exist;
              explain how the subrecipient will meet the requirement; and
              address the financial reporting and budget control requirements.

UMDHSA’s Response

UMDHSA states that it has a strong internal review process for prospective subgrantees to
ensure that the Corporation and Federal regulations are met. Audit staff did not review all of
the UMDHSA requirements for subgrantees. The review process has two levels. The first
level is conducted by UMDHSA program staff through a checklist (program and fiscal) and
narrative process that was revised in 2008. UMDHSA Policy #005 is being sent to the
Corporation under separate cover. UMDHSA indicated that it also has three other internal
tools that must be applied before a new subgrantee is approved. These tools include the
Subrecipient Profile, Monitoring of Subrecipients, and Subrecipients Subject to A-133
Audits. A separate review committee at the University of Maryland convenes to review
subrecipient documentation prior to any issuance of contracts. UMDHSA asked that this
finding be removed.




                                             26
Auditors’ Comments

As stated in the finding, UMCA indicated that the University of Maryland conducted financial
reviews on these subgrantees. These reviews involved the use of a “Subrecipient Profile”
form. However, management did not provide documentation of the review performed on the
two subgrantees in question or any additional information. The Corporation should follow
through on the recommendation to address the condition noted.


Finding 5 - Lack of adequate procedures and controls to ensure eligibility
requirements are met, criminal background checks are performed, service hours are
recorded only for members with contracts, required minimum service hours are met,
members receive consistent member living allowances, and FICA is deducted from
members’ living allowances

Eligibility Requirements Not Met

For 1 (sampled member AAA #03) of the 23 AAA members tested, we found no
documentation to support that the member was a citizen, national, or lawful permanent
resident alien of the United States. AAA documented the member’s eligibility with an
expired work visa and did not otherwise substantiate that the member was eligible. The
AAA official reviewing the documentation did not fully understand the eligibility requirement
and did not know what documents were acceptable per the Federal regulations. Therefore,
we questioned the member’s education award of $1,250. We questioned incentive costs
related to this member in a previous finding.

Criteria:

Pursuant to 45 C.F.R. 2522.200 (a)(3) and the grant provisions under “Member Definition”
section, an eligible participant in the program must be a citizen, national, or lawful
permanent resident alien of the United States.

Pursuant to 45 C.F.R. 2522.200 (c), the following are acceptable forms of certifying status
as a U.S. citizen or national:

           A birth certificate showing that the individual was born in one of the 50 states, the
            District of Columbia, Puerto Rico, Guam, the U.S. Virgin Islands, American
            Samoa, or the Northern Mariana Islands;
           A United States passport;
           A report of birth abroad of a U.S. Citizen (FS–240) issued by the State
            Department;
           A certificate of birth-foreign service (FS 545) issued by the State Department;
           A certification of report of birth (DS–1350) issued by the State Department;
           A certificate of naturalization (Form N–550 or N–570) issued by the Immigration
            and Naturalization Service; or
           A certificate of citizenship (Form N–560 or N–561) issued by the Immigration and
            Naturalization Service.




                                               27
Pursuant to 45 C.F.R. 2522.200 (d) the following are acceptable forms of certifying status as
a lawful permanent resident alien of the United States:

             Permanent Resident Card, INS Form I–551;
             Alien Registration Receipt Card, INS Form I–551;
             A passport indicating that the INS has approved it as temporary evidence of
              lawful admission for permanent residence; or
             A Departure Record (INS Form I– 94) indicating that the INS has approved it as
              temporary evidence of lawful admission for permanent residence.

Recommendation:

   5a.       We recommend that the Corporation resolve the questioned education award of
             $1,250. In addition, we recommend that the Corporation ensure that UMCA
             monitors subgrantee compliance with UMCA’s procedure on “Member Files” to
             verify and document that all eligibility requirements have been met.

UMDHSA’s Response

UMDHSA indicated that the AAA is 100 percent Hispanic and that most of these individuals
have either no or limited English language skills. The individual in question left the program
to go back to Cuba and has never used her education award. The financial living allowance
was her primary interest, as well as a chance to learn new work skills for future employment.
A new staff member was on-board and accepted the expired work visa, indicating a lawful
permanent resident alien of the United States. The staff member now knows that the
documentation was not acceptable. The AAA processed the application in good faith with
no attempt to misrepresent or to facilitate enrollment of a non-eligible individual. An internal
corrective action was instituted at AAA, requiring a supervisory review of all member
application materials prior to enrollment. The corrective action was reviewed by UMDHSA
and approved. Specific training was required for all AAA staff regarding acceptable proof of
citizenship documentation for all applicants, with a particular emphasis on INS
documentation. UMDHSA indicated that this was an isolated incident of one file out of 23
reviewed. UMDHSA is asking that this finding be dismissed.

UMDHSA states that it does have an in-place practice adhered to by all subgrantees. A
sign-off sheet (Member Profile Documentation) is to be completed on each member and
signed off by the supervisor certifying that all eligibility requirements and documents have
been secured. This document was revised in 2008, building in additional elements to
ensure full compliance with Federal regulations. Additionally, the issues of eligibility and
member file documentation have been addressed in two UMDHSA conference calls
(sections titled Member File Documentation—Member Enrollment Form & Member Profile
Documentation Forms and Monthly Reports). The first conference call was May 9, 2002 and
the second call on April 22, 2003. Another check is referenced in the WBRS/AmeriCorps
Portal Enrollment Form that requires both member and staff certification regarding eligibility
requirements. This is an isolated incident representing one member file.




                                               28
Auditors’ Comments

Given that there were no payments made on the education award, the Corporation should
de-obligate funds for that award. The Corporation should review and confirm the corrective
action that was taken at AAA.


Criminal Background Check Not Documented or Incomplete

We noted that, for all 13 Zuni members tested, the member file was missing documentation
of a local and/or state criminal history check, and Zuni was unable to provide that
documentation. For 6 of the 13 member files examined, the state criminal registry check
was required to be conducted for those members who enrolled in the program after
November 23, 2007. In addition, we noted that for 3 of the 23 AAA members tested, and
4 of the 13 Zuni members tested, the National Sex Offender search documented in the file
did not include all 50 states. The four members for Zuni also did not have the required state
criminal registry check as indicated previously. The online search that was documented in
the member file indicated that the databases for certain states were not accessible at the
time the search was conducted. Given the incomplete search, we questioned the following
living allowance and education award costs, as of November 23, 2007:


                                       Questioned        Questioned
                         Sample     Federal Member       Education
                         Member     Living Allowance       Award
                         AAA #02                $    -      $ 2,500
                         AAA #16                     -         1,250
                         AAA #21                     -         1,250
                         Zuni #08                    -         1,250
                         Zuni #09                  900             -
                         Zuni #10                  400         1,250
                         Zuni #11                1,800         2,500
                         Zuni #12                1,610         2,500
                         Zuni #13                  400         1,250
                          Totals               $5,110       $13,750

AAA had $5,000 in questioned education awards. Zuni had $5,110 in questioned Federal
member living allowances and $8,750 in education awards. According to Zuni, the omission
of local and/or state criminal history searches was due to change in staff and a lack of
understanding regarding the requirements. National Sex Offender searches remained
incomplete because AAA and Zuni did not follow up on those states whose databases were
unavailable during the initial search and a lack of secondary review to confirm member
eligibility.

Criteria:

The Grant Provisions, prior to November 23, 2007, in Section IV C.7. required the following,

       Programs with members (18 and over) or grant-funded employees who, on a
       recurring basis, have access to children (usually defined under state or local
       law as un-emancipated minors under the age of 18) or to individuals



                                             29
         considered vulnerable by the program (i.e. the elderly or individuals who are
         either physically or mentally disabled), shall, to the extent permitted by state
         and local law, conduct criminal background checks on these members or
         employees as part of the overall screening process.

45 C.F.R. 2540.203(a) states, “The State criminal registry check must be conducted on an
individual who enrolls in, or is hired by, your program after November 23, 2007.” In addition,
45 C.F.R. 2540.203(b) states, ”The National Sex Offender Public Registry check must be
conducted on an individual who is serving, or applies to serve, in a covered position on or
after November 23, 2007.” 45 C.F.R. 2540.200 states, “You must apply suitability criteria
relating to criminal history to an individual applying for, or serving in, a position for which an
individual receives a Corporation grant-funded living allowance, stipend, education award,
salary, or other remuneration, and which involves recurring access to children, persons age
60 and older, or individuals with disabilities.” 45 C.F.R. 2540.201 states, “Any individual
who is registered, or required to be registered, on a State sex offender registry is deemed
unsuitable for, and may not serve in, a position covered by suitability criteria.”

Recommendations:

We recommend that the Corporation:

   5b.    Resolve questioned costs of $5,110 Federal, $13,750 in education awards and
          recover any disallowed costs.

   5c.    Ensure that UMCA strengthens its monitoring efforts to ascertain subgrantee
          compliance with UMCA’s “Criminal Background and National Sex Offender Public
          Registry Checks” and “Member Files” procedures that requires certification that:

            a. State criminal registry check was conducted and documented on the
               member; and

            b. National Sex Offender search addressing all 50 states, as well as Guam,
               Puerto Rico, and the District of Columbia was conducted and documented
               either in the member’s file or the file refers to the location of such information
               as appropriate.

UMDHSA’s Response

UMDHSA indicated that seven of the members in question (3-AAA; 4-Zuni) did have a
National Sex Offender Public Records search completed in the file. At the time of the
background check, one state was not reporting. The completed checks were placed in the
member files. The Corporations regulations do not say that, if one or more states are not
reporting that additional checks must be repeatedly done until such time all states have
reported. UMDHSA confirmed this with its Corporation Program Officer in June of 2009.
UMDHSA believes that these member files comply with Corporation regulations. UMDHSA
also indicated that both AAA and Zuni did go back and run second reports showing the
missing state in question. UMDHSA requested that the recommendation and the
questioned costs related to these files be dismissed.

UMDHSA indicated that Zuni staff had conducted Tribal Criminal Background checks but not
State Criminal checks. The reason for this error was a change in staff for the AmeriCorps


                                               30
Program. All other Zuni employees are only required to have a tribal check and the new
staff member assumed it was the same for AmeriCorps members. Upon learning of this
error, Zuni ran State Criminal Background Checks and National Sex Offender checks on all
the members in question. All came back clean and were placed in the respective member
files. UMDHSA stated that this was a one-time incident and that that the Zuni subgrant was
terminated in April of 2009. UMDHSA requested that the questioned costs be dismissed.

UMDHSA stated that it has updated its 2007 Criminal Background and National Sex
Offender policy reflecting the latest guidance from Corporation and Federal regulations.
This UMDHSA policy (#007-ADM) was revised and disseminated to its subgrantees.
UMDHSA Policy #007 is being sent to the Corporation under separate cover. UMDHSA
indicated that it has a monitoring process and tool in place and that State Criminal
Background checks and the National Sex Offender Public Registry checks are assessed
through a random sample of member files during each site visit. UMDHSA stated that its
internal reports have noted several corrective actions for missing or incomplete checks.
UMDHSA also stated that subgrantee sites must also complete the UMDHSA Member
Profile Documentation Checklist form prior to member enrollment. This includes the State
Criminal Background check and National Sex Offender Public Registry check. UMDHSA
requests that this recommendation be dismissed.

Auditors’ Comments

The Federal regulation requires a National Sex Offender Public Registry check. A check
that covers all but one locality is not a national check. The Corporation should confirm that
all State Criminal Background checks and National Sex Offender checks were conducted.
Based on this information, the Corporation should resolve the questioned costs of $5,110
Federal, $13,750 in education awards and recover any disallowed costs. The Corporation
should also confirm that updated procedures were disseminated to subgrantees and that the
procedures address the conditions that were noted.


Service Hours Recorded Before Member Contracts Signed

The AAA allowed 12 of 23 members to record service hours before the members had signed
their contracts for their first term of service. Of the 12 members, 4 members signed their
contracts up to 1 month late and 8 members signed their contracts 4 to 7 months late, i.e.,
after the start of the term period indicated in the contract.

In addition, 2 of the 12 members, who had recorded service hours prior to signing their
contracts in their first term of service, also signed their second term contracts late, i.e.,
1 month late for one member and 7 months late for the other member.

The AAA advised that it had difficulty in getting the members to sign and return contracts in
a timely manner. Given that the members were not properly enrolled prior to starting
service, any service hours recorded by the member prior to signing the contract could be
questioned, which might cause the member to have insufficient hours to earn an education
award. We are reporting this issue as noncompliance with the regulations and grant
provisions.




                                             31
Criteria:

Member recruitment, selection and enrollment requirements are in the Corporation’s
regulations at 45 C.F.R. Part 2522. In addition, the member enrollment procedures in the
PY 2006-2007 and PY 2007-2008 grant provisions state in Section IV, C.1.a, that, “An
individual is enrolled as an AmeriCorps member when all of the following has occurred:
(1) he or she has signed a member contract; (2) the program has verified the individual's
eligibility to serve; (3) the individual has begun a term of service; and (4) the program has
approved the member enrollment form in WBRS.”

Recommendation:

   5.d      We recommend that the Corporation ensure that UMCA revises its procedures and
            the contract template that the subgrantees use to note that the actual service term
            for the potential member cannot start until after it is signed by the member.


UMDHSA’s Response

UMDHSA indicated that the member contract for the group of nine members was originally
executed during the enrollment period, along with other documents. However, an internal
routine review of members’ files in October 2007 revealed that the contract contained an
incorrect term year, as well as incorrect enrollment and completion dates. During this time
there had been a realignment of staff responsibilities. Staff reissued a replacement contract
for members to sign, but felt it was unethical for members to backdate the second
(replacement) contract to the original enrollment date; therefore, the second replacement
contract signature date is 6-7 months after the original enrollment date. UMDHSA stated
that AAA staff recognizes the importance of policy and procedure with regard to having
documentation prior to member enrollment and has instituted its own internal corrective
action steps to ensure that contract templates are accurate and that all documents are
executed prior to official enrollment. UMDHSA staff monitored the AAA site in May of 2009,
randomly selecting member files for full documentation and found no incidences of non-
compliance (i.e., member contract start and end dates).

The UMDHSA member contract template already provides for a contract start and end date.
Project directors at all subgrantee sites are aware that member hours (service and training)
do not count until the after the date the contract is signed and dated by both the member
and supervisor. The UMDHSA practice is also restated on page 28 of its Project Director
and Member Handbook, “The contract must be signed and dated by both the member and
supervisor before services and/or training commences.” Compliance with this and
Corporation regulations is a part of UMDHSA’s onsite annual monitoring. UMDHSA
requested that this recommendation be dismissed.

Auditors’ Comments

The Project Director and Member Handbook provided to the auditors was last revised in
2008 and does not contain the language indicated by UMDHSA. The Corporation should
ensure that the handbook has been updated to address the condition noted in the finding.
The Corporation should also ensure that the contract template contains a note that the
actual service term for the potential member cannot start until after it is signed by the
member.


                                               32
Timesheet Hours Were Not Sufficient to Support Hours Certified for Education
Awards

We noted that for 5 of the 23 AAA members and 6 of the 13 Zuni members tested, the
member service hours per the timesheets did not agree with the certified hours submitted for
education awards as follows:

                                                                          Questioned
          Sample      Program      Certified   Timesheet       Hours      Education
          Member        Year        Hours        Hours      Unsupported     Award
          AAA #01    2005 – 2006      470.50       214.00        256.50       $ 1,250
          AAA #04    2005 – 2006      807.00       161.00        646.00         1,250
          AAA #05    2005 – 2006      701.00       159.00        542.00         1,250
          AAA #06    2005 – 2006      783.00       154.00        629.00         1,250
          AAA #07    2005 – 2006    1,004.00       287.00        717.00         1,250
          Zuni #02   2005 – 2006      498.00       127.50        370.50         1,250
          Zuni #03   2005 – 2006      465.00       363.00        102.00         1,250
          Zuni #03   2006 – 2007      515.00       194.25        320.75         1,250
          Zuni #04   2006 – 2007      474.00       181.25        292.75         1,250
          Zuni #06   2005 – 2006      528.00       251.50        276.50         1,250
          Zuni #06   2006 – 2007      534.00       153.00        381.00         1,250
          Zuni #11   2006 – 2007      527.00       250.00        277.00             -
          Zuni #12   2006 – 2007      498.00       216.00        282.00             -
                                                               Total         $13,750

The required hours of service for the education award for quarter term members is
450 hours as stated in the service term agreement. All of the members are quarter term
members.

Timesheets did not agree with the certified hours reported in the end-of-term form in WBRS
because timesheets were missing from the member files. The missing timesheets may have
been lost, destroyed, misfiled, never filed, or do not exist. There was no process in place to
reconcile the timesheets to the certified hours. AAA indicated that additional timesheets had
been located for its members, but it had not provided that documentation to the auditors in
time to consider them for this report.

Certified service hours unsupported by valid timesheets resulted in questioned education
awards of $6,250 for AAA and $7,500 for Zuni. Total questioned education awards of
$2,500 for Zuni #11 and Zuni #12 were not included in the table because we questioned
those costs in a previous finding.

UMCA’s monitoring procedures currently provide for selecting the timesheets for five
members for only one month to compare to the hours reported in WBRS. Although UMCA’s
monitoring has identified similar deficiencies with regard to unsupported hours reported,
UMCA should expand its monitoring to ensure that total hours reported for a member are
supported.




                                               33
Criteria:

The PY 2006-2007 and PY 2007-2008 grant provisions in Section IV, C.2., state:

         The grantee must keep time and attendance records on all AmeriCorps
         members in order to document their eligibility for in-service and post-service
         benefits. Time and attendance records must be signed and dated both by the
         member and by an individual with oversight responsibilities for the member.

The grant provisions also state under Section IV, J., that:

         In order for a member to receive a post-service education award from the
         National Service Trust, the grantee must certify to the National Service Trust
         that the member is eligible to receive the education benefit. The grantee
         must notify the National Service Trust on a form provided by the Corporation
         (electronic submission via WBRS suffices) when it enrolls a member for a
         term of service, when the member completes the term, and whenever there is
         a change in the member's status during the term (e.g., release for compelling
         circumstances or suspension).

Recommendations:

    We recommend that the Corporation:

   5e.      Resolve the $13,750 in questioned education awards and recover any disallowed
            costs.

   5f.      Ensure that UMCA increases the scope of its review when discrepancies are noted
            between the timesheets and the hours reported in WBRS for all the members
            being tested to determine if such errors are one-time occurrences or a continual
            problem and address the discrepancies.

UMDHSA’s Response

UMDHSA indicated that AAA electronically submitted a PDF file of members’ time sheets to
the auditor for review on March 4, 2009. These files were not reviewed by the auditors. A
reconciliation of the questioned member time sheets was conducted as recommended by
the auditor. The reconciliation noted the following:

        AAA #01 - For Program Year 2005-2006, UMDHSA indicated that the member’s
         hours were recorded in WBRS as 470.5. The member was enrolled on May 3, 2006,
         and completed the term on March 31, 2007. The timesheets were added individually
         and totaled 544.5 hours. At a minimum, 450 hours were supported through
         authenticated approved time sheets, for approved service. These hours were
         attested to by the Program Director and are available for review.

        AAA #04 - UMDHSA indicated that the member served from May 2006 to December
         2006, January 2007 to May 2007, and earned the award in March 2008. Timesheets
         were located and reconciled to WBRS. There was a difference of 7 hours, however
         the member still had documented minimum of 800 hours and is therefore eligible for
         the education award.


                                              34
      AAA #05 - UMDHSA indicated that the member served from May 2006 to September
       2006 and November 2006 to December 2006. Missing timesheets were found and
       reconciled to WBRS for a total of 701 hours. UMDHSA indicated that the member
       was eligible for the education award.

      AAA #06 - UMDHSA indicated that the member served from June 2006 to July 2006
       and September 2006 to December 2006. Missing member timesheets were found
       and reconciled to WBRS for a total of 783 hours. UMDHSA indicated that member is
       eligible for education award.

      AAA #07 - UMDHSA indicated that the member served from May 2006 to December
       2006 and April 2007. WBRS reflected 1,004 hours and timesheets shows 1,049
       hours. UMDHSA could not adjust WBRS as records were closed. However, the
       member still achieved more than 450 hours and was eligible for the education award.

UMDHSA requested that the cumulative questioned education award costs of $6,250 should
be dismissed.

UMDHSA indicated that the continuous (almost every six months) turnover of program staff
at Zuni contributed to breaks in the member/client records. It was subsequently verified
through self-attestation of members and staff that service was performed. Attestation
statements from Zuni are available. Language barriers and the writing skills of the tribal
members also contributed to the gaps in file documentation. Historically, Zuni members far
exceed the required 450 hours of service. UMDHSA indicated that past monitoring reports
showed continuous corrective actions were required of Zuni staff to obtain the correct
documentation of service and training hours. This effort was thwarted by frequent staff
turnover. Based on the Zuni's member specific affidavit statements, UMDHSA requested
that the questioned education award amount of $7,500 be dismissed.

UMDHSA indicates that it continuously assesses and reconciles member service and
training hours reported at the subgrantee level in WBRS/OnCorps, which determines the
education award. UMDHSA states that this assessment is noted in every monitoring report
throughout the year with corrective actions noted for internal reconciliation. UMDHSA
indicated that it takes this aspect very seriously and fully understands the requirements
needed to document an education award. This reconciliation occurs monthly before the
hours are entered to WBRS/OnCorps. That is, only the hours that meet the fundamental
requirements (e.g., signed & dated member/supervisor service/training activity logs showing
actual service rendered and/or training attended) are considered a valid document and must
be accounted for before entry into WBRS/OnCorps. Additionally, UMDHSA indicated that
UMCA has stated its requirement for member and supervisor sign-off in the Project
Director’s and Member Handbook. When a subgrantee site has multiple non-compliance
findings, UMDHSA will conduct additional desktop audits to ensure program compliance.
UMDHSA had also documented the same findings as the audit with corrective actions
already in place.

Auditors’ Comments

The subgrantees were informed about the members that would be reviewed prior to the
auditors’ site visits in January 2009. The subgrantees were advised about the missing
timesheets during the auditors’ site visits and at the end of their site visits. The auditor


                                            35
documented those timesheets that were available during the site visits in the work papers.
Internal control supporting documentation should be readily available for review. The
auditor was unable to consider subsequent information provided by AAA in March 2009
because it was provided too late. The Corporation should follow through on the
recommendations as stated.


Timesheets Not Signed by Supervisor and No Indication of Service Performed and/or
Client Served

In four instances, AAA and Zuni supervisors did not sign member timesheets. As a result,
we questioned the education award of one member who, when the unapproved hours were
subtracted from certified service hours, did not qualify for the education award.



            Sample            Timesheet         Timesheet       Questioned
            Member               Period           Hours       Education Award
            AAA #02          August 2007              40.5              $     -
            AAA #14       April & Sept. 2008          79.0                    -
            AAA #18           Oct. 2008               41.0                    -
            Zuni #02   July 2007 – March 2008        480.5                1,250
                                                  Total                 $1,250

In addition, there were seven instances in which AAA and Zuni member files did not
document service performed and/or client served by their members as follows:

                         Subgrantee             Description
                            AAA        1 of the 23 members tested
                            Zuni       6 of the 13 members tested

The absence of documentation for service performed and/or client served in the members’
files was due to an oversight on the part of the subgrantees. AAA and Zuni advised us that
the lack of supervisory signatures on the timesheets was also an oversight, but there were
no secondary reviews to ensure that supervisors signed. As a result, we questioned $1,250
for the education award of a Zuni member.

Criteria:

The PY 2006-2007 and PY 2007-2008 grant provisions under Section IV, C.2., state, “The
grantee must keep time and attendance records on all AmeriCorps members in order to
document their eligibility for in-service and post-service benefits. Time and attendance
records must be signed and dated both by the member and by an individual with oversight
responsibilities for the member.”

The UMCA Project Director and Member Handbook (Section IV, Member Time Sheets)
indicate that the timesheets provide a tangible way for the members to communicate their
service activities to their supervisor. The supervisor needs to know how many hours of
service the member worked on any given day, how many individuals (i.e., client) the
member served, and what types of services were rendered that made an impact.




                                           36
Recommendations:

We recommend that the Corporation:

   5g.   Resolve questioned education award costs in the amount of $1,250 and recover
         any disallowed costs.

   5h.   Ensure that UMCA strengthens the monitoring of its subgrantees to ascertain that:

           a. member living allowance payments are not made without verifying that the
              timesheet has been signed and dated by the member and the supervisor, and

           b. member files contain evidence of the work performed and the client served.

UMDHSA’s Response

UMDHSA indicated that the AAA site has corrected the omission of supervisory signature on
those time sheets in question. An earlier edition of the English language version (90 percent
of its members speak only Spanish) of the time sheet used in 2006 did not include a column
for members to list specific activities performed on a daily basis or to print the name of the
client being served. In 2007, the English version was revised to provide more detailed
information—section for printed client name and column for daily activities performed.
Forms are now available in Spanish so that members can recognize and understand the
program requirements.

UMDHSA stated that the Zuni staff has obtained self-attestation statements from the
caregiver that services were performed, even though the member record was inconsistent.
The Zuni Member Service Log form was also revised to include the physical address, place
of service and name of caregiver. Timesheets were subsequently signed by staff, as
attested to by the caregiver. UMDHSA does require that the program supervisor or
designee certify each month to the fiscal unit that service and or training has occurred
during the month and that payment is approved. This checks-and-balances documentation
may be done via e-mail or hard copy.

UMDHSA indicated that past monitoring reports document this action between program and
fiscal since fiscal only cuts the checks and must rely on program staff for approval. This
approval is based on the Member Time and Service Activity logs that are approved, signed,
and dated by the member and supervisor. UMDHSA also stated that the requirements for
member and supervisor sign-off and dating is addressed in the Project Director and Member
Handbook. UMDHSA indicated that it was aware of the issue with both of the sites in
question and had also identified these issues in their respective monitoring reports.
UMDHSA stated that this was not an issue with the other nine subgrantee sites.

Auditors’ Comments

The Corporation should follow through with the recommendations and confirm that the
corrective actions taken by AAA address the conditions noted in this finding.




                                             37
Members Not Receiving Consistent Member Living Allowances

We reviewed two random pay periods for Zuni member living allowances from the period
September 20, 2006 to September 30, 2008. For three of four members tested, the
members received Federal allowances in unequal installments. According to Zuni, its
payroll department improperly paid the members in unequal installments due to human
error. The members tested who were paid in unequal installments totaling $320 (i.e.,
3 payments of $60, 3 payments of $40, and 2 payments of $10). The allowances should
have been $100 for each payment for a total of $800. This resulted in an underpayment of
member living allowance totaling $480.

Criteria:

The 2007-2008 AmeriCorps Special Provisions, Section IV.I.1., Living Allowance
Distribution state:

         Living allowance is not a wage. Programs must not pay a living allowance on
         an hourly basis. Programs should pay the living allowance in regular
         increments, such as weekly or bi-weekly, paying an increased increment only
         on the basis of increased living expenses such as food, housing, or
         transportation. Payments should not fluctuate based on the number of hours
         served in a particular time period, and must cease when a member concludes
         a term of service.

Recommendation:

   5i.      We recommend that the Corporation ensure UMCA strengthens its monitoring
            efforts on subgrantee compliance to ensure that member living allowance
            payments are paid consistently and in accordance with the AmeriCorps grant
            provisions.

UMDHSA’s Response

UMDHSA stated that it does monitor and assess the consistent payment of member living
allowances during each of its annual site assessment visits. Member files are randomly
pulled that include their member time and activity logs, which are then verified against the
member living allowance. Documentation of this practice can be verified in the UMDHSA
monitoring reports. UMDHSA indicated that this was an isolated incident specific to Zuni
and should not be globalized to the other 10 sites.

Auditors’ Comments

The Corporation should follow up to determine whether the current practice is sufficient.
The Corporation should also confirm that that this was an isolated event by reviewing
UMDHSA’s prior monitoring reports.




                                             38
FICA Not Deducted from the Members’ Living Allowances

Zuni did not properly deduct FICA taxes from its members’ living allowances in accordance
with the grant provision and Federal laws. Zuni reported living allowances as contract
expense within its accounting system. For 8 out of 13 members tested, Zuni did not deduct
FICA from living allowances. Consequently, Zuni may be in violation of Federal tax laws
and does not comply with grant provisions.

Zuni advised us that those members paid as a contract expense received an IRS Form
1099-G, Certain Government Payments, if their total payments for the year exceeded $600,
which is contrary to AmeriCorps grant provisions. UMCA identified this issue during a site
visit and informed Zuni that it was not in compliance with the grant provisions. Zuni
discontinued reporting living allowances as a contract expense and ran its living allowance
payments through its payroll system so that FICA was deducted and reported as a grant
expense. However, there was no indication that Zuni had gone back to correct and resolve
those transactions that were not in compliance with the grant provisions.

Criteria:

AmeriCorps 2007-2008 Grant provisions, Special Provisions, Section IV.I.3(b)., FICA (Social
Security and Medicare Taxes) state:

         Unless the grantee obtains a ruling from the Social Security Administration or
         the Internal Revenue Service that specifically exempts its AmeriCorps
         members from FICA requirements, the grantee must pay FICA for any
         member receiving a living allowance. The grantee also must withhold 7.65%
         from the member’s living allowance.

Recommendation:

   5j.      We recommend that the Corporation ensure UMCA provides the necessary
            training to its subgrantees on grants provision related to member allowances. In
            addition, the Corporation should ensure that UMCA reviews Zuni’s records to
            determine the amount of member living allowances paid for which FICA deduction
            expenses were not made and ensure that Zuni works with the IRS to determine
            what corrective action should be taken.

UMDHSA’s Response

UMDHSA indicated that Zuni did not properly deduct FICA taxes from member living
allowances; however, Zuni immediately corrected its procedures as soon as it became
aware of the requirement. Zuni issued 1099s to the members prior to FICA deductions; and
copies of the 1099s were provided as documentation to the auditors on February 26, 2009.
Therefore, Zuni is disputing the fact that no documentation was provided to the auditors.
The dispute was relayed to the auditors on March 16, 2009, but Zuni did not receive a
response. UMDHSA indicated that this is an isolated incident and not reflective of the other
10 sites.

The requirement to pay member FICA and Workers’ Compensation is set forth in the annual
Corporation and UMDHSA grantee application instructions. This error occurred during the
transition from private foundation money to integration into the AmeriCorps Program, which


                                              39
changed the member's status from a 1099 to paying FICA under AmeriCorps. Under Zuni’s
previous non-AmeriCorps contract, the only requirement was to issue 1099s.

UMDHSA indicated that Zuni now pays FICA on AmeriCorps members. UMDHSA had
already noted this item in its own onsite monitoring and had recommended that Zuni work
with the IRS to determine a correct course of action for those members whose FICA was not
paid, as it may have some impact on the members and their previous tax filings. UMDHSA
stated that it terminated its subgrant with Zuni in April 2009.

Auditors’ Comments

The finding does not indicate that Zuni did not provide any documentation. During their site
visit, the auditor concluded that Zuni did not take any corrective action regarding those
1099s in question. The Corporation should confirm whether this was an isolated event, and
based on that assessment, it should determine how to best address the recommendation.


Finding 6 – Enrollment form submitted before member contract was signed and late
submission of member forms

Zuni entered into WBRS the enrollment of 2 of 13 Zuni members, that we tested, before
member contracts were signed. It enrolled the members 29 to 64 days before the contracts
were signed.

In addition, subgrantees submitted and approved member forms late in WBRS, as follows:

              Subgrantee     Document Submitted/Approved Late       Days Late
             AAA # 02       Enrollment Form                            23
             AAA # 03       Enrollment Form                            87
             AAA # 15       Enrollment Form                            64
             AAA # 20       Enrollment Form                            10
             AAA # 14       Change In Status Form                       7
             AAA # 16       Change In Status Form                      44
             Zuni # 01      Enrollment Form                            24
             Zuni # 12      Enrollment Form                            18
             Zuni # 01      Change In Status Form                      10
             Zuni # 07      Exit/End-of-Term-of-Service Form           10

AAA and Zuni attributed to human error and/or lack of available personnel for the late
submission and approval of these forms into WBRS.

Criteria:

The PYs 2006-2007 and 2007-2008 grant provisions state in Section IV, N.2.a-c., that,

       The grantee is required to submit the following documents to the National
       Service Trust on forms provided by the Corporation. Grantees and sub-
       grantees may use WBRS to submit these forms electronically. Programs
       using WBRS must also maintain hard copies of the forms. Enrollment forms
       must be submitted no later than 30 days after a member is enrolled. Member
       Change of Status Forms must be submitted no later than 30 days after a


                                            40
         member’s status is changed. By forwarding Member Change of Status
         Forms to the Corporation, State Commissions and Parent Organizations
         signal their approval of the change. Member Exit/End-of-Term-of-Service
         Forms must be submitted no later than 30 days after a member exits the
         program or finishes his/her term of service.

Recommendation:

We recommend that the Corporation:

   6a.    Verify that UMCA strengthens its subgrantee monitoring to ensure that the member
          contract is in place prior to enrolling the member and entering information into
          WBRS or other Corporation systems.

   6b.    Verify that UMCA strengthens its subgrantee monitoring to ensure that Enrollment,
          Change of Status and Exit/End-of-Term-of-Service forms are processed and
          approved in WBRS or other Corporation systems within 30 days of when the event
          occurs.

UMDHSA’s Response

UMDHSA stated that it does have a standard in its monitoring tool regarding the period for
entry in the WBRS (now AmeriCorps Portal), Exit Forms and Change of Status. These
items are assessed during each site visit through random samples. Documentation of
implementation can be referenced from existing monitoring reports. Additionally, UMDHSA
indicated that staff also generates an internal report (instituted in 2008) that shows
enrollment dates and exit dates.      UMDHSA has also revised its Member Profile
Documentation Form into two parts that requires the Program Supervisor to sign off on the
form, which includes assurance that enrollment (Part I) and End of Term (Part II) has been
completed within the required timeframes. UMDHSA provided the documents to the
auditors as part of UMDHSA’s March 23, 2009, response.

Auditors’ Comments

The Corporation should verify that the current monitoring efforts are an improvement over
what was in place during the scope of the audit and that the improvements will substantially
reduce or eliminate the occurrence of such exceptions.


Finding 7 – Subgrantees lacked documentation of end-of-term member evaluations
and of members attending orientation

Documentation of End-of-Term Member Evaluation

For 16 of 23 AAA members tested and for 2 of 13 Zuni members tested, the subgrantees did
not document final end-of-term evaluations. We questioned the following costs because the
members served a second term or were in the process of serving their second term without
the required evaluation:




                                            41
                                             Questioned
                                   Sample    Education
                                   Member      Award
                                   AAA #04       $1,250
                                   AAA #05         1,250
                                   AAA #06         1,250
                                   AAA #07         1,250
                                   AAA #09         1,250
                                   AAA #15         1,250
                                   AAA #18         1,250
                                    Totals       $8,750

We were advised that the lack of final end-of-term evaluation was due to the AAA’s and
Zuni’s misunderstanding of the UMCA policy concerning it, which was not very clear about
when this evaluation should be performed.

Without end-of-term evaluations, the subgrantee does not have documentation to support
that members are meeting program objectives and are eligible to serve a second term. In
such instances, we question member living allowances and education awards that are for a
subsequent term of service. Therefore, we questioned education awards, totaling $8,750,
for AAA’s members. AAA also had $2,500 in education awards (AAA #02 and AAA #21)
that were already questioned in previous findings for different reasons. Likewise, Zuni had
$1,000 for Federal member living allowance costs and $1,250 for an education award (Zuni
#11) questioned in previous findings for different reasons. Those costs questioned in
previous findings are not included in the table above.

Criteria:

45 C.F.R. 2522.220(d)(1)-(3) states, “For the purposes of determining a participant’s
eligibility for a second or additional term of service and/or for an AmeriCorps educational
award, each AmeriCorps program will evaluate the performance of a participant mid-term
and upon completion of a participant’s term of service." The PY 2006-2007 and PY
2007-2008 grant provisions state in Section IV, D.6., “The grantee must conduct and keep a
record of at least a midterm and end-of-term written evaluation of each member's
performance for full and half-time members and an end-of-term written evaluation for less
than half-time members.” It also states that member evaluations should focus on such
factors as whether the member has completed the required number of hours, satisfactorily
completed assignments, and met other performance criteria that were clearly communicated
at the beginning of the term of service.

No other document was brought to our attention that would be a reasonable substitute for
the end-of-term evaluation required by the regulation and provisions.

Recommendations:

We recommend that the Corporation:

   7a.      Resolve questioned education award costs, totaling $8,750, and recover any
            disallowed costs.




                                             42
   7b.   Ensure that UMCA strengthens its subgrantee monitoring to make certain end-of-
         term evaluations are conducted prior to submitting/entering the Exit/End-of-Term-
         of-Service forms into WBRS or other Corporation systems.

UMDHSA’s Response

UMDHSA indicated that member evaluations are a requirement for all subgrantees. The
same is assessed annually through the UMDHSA Technical Assistance Site Assessment
Monitoring Tool, which includes both mid-term and end-of-term evaluations. UMDHSA’s
current practice, as noted in UMDHSA’s Member Evaluation Form, is that the mid-term and
annual evaluation is to be completed on each member. A favorable completed evaluation
must also be on file before a member can serve a second term. The Evaluation process is
also outlined in the Project Director and Member Handbook under “Performance
Evaluations.” The issue of end-of-term member evaluations was also addressed in the
UMDHSA’s conference call meeting on March 6, 2008, under the section titled
“Member/Program Evaluation Instruments.” Minutes of this meeting are on file at UMDHSA.
UMDHSA requirements are also referenced on the Member Profile Documentation form
(recently revised for better clarity). To strengthen the process, UMDHSA has now
recommended to its sites that the final member living allowance check be withheld until the
member’s end-of-term evaluation is completed.

UMDHSA indicated that there was no intent to circumvent the End-of-Term Member
Evaluation. These sites misinterpreted the UMDHSA policy. These members were in good
standing with the grantee, as referenced in their mid-term evaluations, and were thus invited
back to serve a second term. UMDHSA indicated that the issue of End-of-Term Evaluations
has been resolved because all members completing their 2007-2008 term had an End-of-
Term Evaluation. UMDHSA stated that this was validated in the May 2009 UMDHSA onsite
Monitoring Visit. UMDHSA indicated that, since all members in question exceeded the
required 450 hours and were in good standing at mid-term, it requests that the questioned
costs of $8,750 be dismissed.

Auditors’ Comments

The Corporation should confirm that stated improvements are in place (i.e., clarification of
the requirements and implementation that final member living allowance payment be
withheld until the end-of-term evaluation is completed). The Corporation still needs to
resolve the questioned education award costs and recover any disallowed costs after
considering the information provided by UMDHSA.


Documentation of Members Attending Orientation

We noted that for 12 of the 23 AAA members tested and 2 of the 13 Zuni members tested,
documentation to support the member’s attendance to orientation was not provided.
Without proper orientation, members may not be knowledgeable on how to properly fulfill
program requirements.




                                             43
Criteria:

The PYs 2006-2007 and 2007-2008 grant provisions state in Section IV, D.3.,

         The grantee must conduct an orientation for members and comply with any
         pre-service orientation or training required by the Corporation.            This
         orientation should be designed to enhance member security and sensitivity to
         the community. Orientation should cover member rights and responsibilities,
         including the Program's code of conduct, prohibited activities (including those
         specified in the regulations), requirements under the Drug-Free Workplace
         Act (41 U.S.C. 701 et seq.), suspension and termination from service,
         grievance procedures, sexual harassment, other non-discrimination issues,
         and other topics as necessary.

Recommendation:

   7c.      We recommend that the Corporation ensure that UMCA strengthens its subgrantee
            monitoring related to member orientation.

UMDHSA’s Response

The UMDHSA indicated that AAA conducted orientation consistent with the policies and
procedures set forth by UMDHSA. The member training files from 2005-2006 term year,
which included agenda and sign-in sheets for orientation, and all other training were lost
during two moves that the AAA experienced in spring of 2008. This loss especially affected
second-term members who had orientation during their first term of service in 2005-2006.

UMDHSA stated that Zuni did provide orientation training, but lacked member sign-in
sheets. Zuni subsequently developed a new sign in sheet to track and document all
members receiving orientation. A self-attestation form for each member will be signed and
dated by the member and filed in their respective folder.

UMDHSA indicated that it does require orientation of all AmeriCorps members. This
practice is outlined in the Project Director and Member Handbook. A fully documented
orientation (or any training) is only valid with a training agenda showing the date and topics
of training and a member sign-in sheet. UMDHSA stated that this practice was assessed
through its annual site visits, using the UMDHSA Technical Assistance Site Assessment
Monitoring Tool. UMDHSA requested this recommendation be dismissed.

Auditors’ Comments

The Corporation should take into consideration UMDHSA’s response in determining whether
the recommendation is still necessary. The Corporation should confirm that the other
subgrantees did not have similar issues in UMDHSA’s monitoring reports.




                                               44
ATTACHMENT I:   UNIVERSITY OF MARYLAND CENTER ON AGING RESPONSE TO
                DRAFT REPORT
  From: Jack Steele [jsteele@stny.rr.com]
  Sent: Friday, September 11, 2009 1:35 PM
  To: James B. Elmore
  Cc: 'Moreno, Claire'; lwilson@umd.edu; 'Sue Anne Swartz'; Linda; jsteele@stny.rr.com; hmoynaha@umd.edu
  Subject: UMDHSA OIG Reponse Report

  Attachments: UM-OIG Response-9-09.docx
  Dear Jim:
   
  Attached is the UMDHSA OIG Response Report that is due to your office on September 14, 2009. 
   
  Thank you for the opportunity to respond and to provide additional supporting documentation in reference to the
  various OIG recommendations.  I have sent to Claire Moreno at CNCS a separate set of attachments that are
  referenced within the UMDHSA Response Report.
   
  We look forward to successfully resolving any and all issues as set forth in the August 14, 2009 OIG Report.  It has
  been a good learning experience and we have enjoyed working with the OIG staff.
   
  Please let me know if you have additional questions at this time.  My cell phone number is 607-287-2828 as I will be
  in Washington D.C. attending the CNCS National Training event for most of next week.
   
  Jack
   
   
  Jack Steele
  University of Maryland
  Department of Health Services Administration
  Tele:  607-865-7980
  Fax:   607-865-8937
  jsteele@stny.rr.com
   




file:///S|/AUDIT/AuditReports/WEB_Posting/10-05/1stPage-grantee%20Reponse%20Report.htm[10/23/2009 9:17:54 AM]
                           University of Maryland
                          School of Public Health
                 Department of Health Services Administration




Auditor Recommendations                            University of Maryland
                                          Department of Health Services Administration
                                                           Response
1a.   Resolve questioned costs of    1.a.   The AAA in West Palm Beach has provided additional
      $3,745 in Federal and          documentation for questioned federal amount of $1,003 and will
      $18,073 in match costs and     be submitted under separate cover to CNCS. This document
      recover any disallowed         was originally submitted to Clifton Gunderson with the
      costs.                         UMDHSA 3/23/09 response report. Match costs for the CNCS
                                     grant are now tracked in a separate account to avoid future
                                     questioned costs.

                                     Zuni submitted additional financial records to support federal
                                     costs of $42 and $1,186 of the $2,700. These amounts were
                                     submitted by Zuni to Clifton Gunderson in the UMDHSA 3/23/09
                                     response report.

                                     Zuni submitted in January 2009 to Clifton Gunderson
                                     documentation supporting the cost of an additional $11,568 in
                                     questioned match. These documents will be sent under
                                     separate cover to CNCS.

                                     Note: The University of Maryland Department of Health
                                     Services Administration (UMDHSA) terminated the Zuni
                                     contract in April, 2009. This was after two years of on-going
                                     technical assistance and corrective action measures to
                                     increase program compliance with both fiscal and program
                                     issues.

                                     The core issue for Zuni revolved around continuous staff
                                     turnover over in both the program and fiscal departments
                                     making it difficult to consistently meet compliance standards.
                                     The same is documented in numerous UMDHSA Monitoring
                                     Reports prior to contract termination.



1b.   Ensure that UMCA develops      1.b.    UMDHSA has always audited and reconciled financial
      and implements financial       records of subaward grantees during its annual monitoring
      reconciliation requirements    visits. Additionally, subaward grantee sites are required to
      for subgrantees and monitors   reconcile their monthly PER in conformance to UMDHSA Policy
      to ensure that the             #11.
      subgrantees’ financial
      information is reconciled to   UMDHSA has also provided extensive financial training every
      their submitted PERs.          other year at its own National Direct Training through Walker
Auditor Recommendations                                University of Maryland
                                              Department of Health Services Administration
                                                               Response
                                       and Company. Training was provided in 2006 (January 22-24)
                                       and 2008 (May 12-14). All participants received training
                                       workbooks for future reference. Topics did include financial
                                       reconciliation and accounting records/systems. All sites are
                                       required to code AmeriCorps funds separate from other funding
                                       sources.

                                       All fiscal staff of subgrantees are required to attend these
                                       training events. To augment our on-going financial training and
                                       on-site monitoring visits, we have also committed to writing our
                                       internal policy on financial reconciliation titled "Fiscal
                                       Reconciliation of Periodic Expense Reports. Said policy was
                                       written in March of 2009 and disseminated to all Site Directors
                                       on March 18, 2009. Policy #11 has been sent to CNCS under
                                       separate cover.

                                       Additional desk-top audits are conducted for "at-risk" sites
                                       based on compliance standards.


1c.   Ensure that UMCA requires        1.C. See response noted above under 1.b. Additional
      its subgrantees to adjust        supporting financial documents will be sent to CNCS under
      their accounting systems to      separate cover detailing questioned costs. Extensive
      be able to track and report      documented fiscal training has been provided to subaward
      on grant expenditures (i.e.,     grantees through UMDHSA and CNCS regarding match
      federal and match) incurred.     accounts, required documentation, accounting sytems/records.
      In addition, the Corporation
      should work with UMCA to         The training topics were requested of Walker & Company by
      obtain a reconciliation of the   UMDHSA as a direct result of our own findings from on-site
      costs incurred in its            Monitoring visits of all subaward grantees.
      subgrantees’ accounting
      system and the costs
      claimed to the corporation
      grant.


1d.   Work with UMCA to resolve        1.d.    See responses noted above under items 1.a, 1.b., and
      the discrepancies between        1.c.
      the reported claimed Federal
      and match costs and its
      accounting records after the
      reconciliation is performed
      and reviewed for its
      reasonableness.


1e.   Perform testing of Zuni’s        1.e    See response noted above under item 1.a. Additional
      $15,287 in match costs that      financial documentation will be provided under separate cover
      the auditors could not review    to CNCS. Documents were originally provided to Clifton
      due to Zuni’s late disclosure    Gunderson on 3/23/09.
      of those expenses.
                                       Note: Most findings throughout this report were first
                                       documented by UMDHSA through its own internal monitoring
Auditor Recommendations                               University of Maryland
                                             Department of Health Services Administration
                                                              Response
                                        process with a series of corrective actions noted. These two
                                        sites were previously flagged by UMDHSA staff regarding
                                        financial and programmatic issues and are not indicative of our
                                        other subaward grantee sites.


                                        UMDHSA has a continuous training program to strengthen all
1f.   We recommend that the             subaward grantees. We have had an annual UMDHSA National
      Corporation ensure that           Training event since 2001. Every other year we have a primary
      UMCA continues to monitor         focus on fiscal training and require all subaward grantee fiscal
      and provide training to its       staff to attend.
      subgrantees (i.e., how to
      reconcile its financial records   In both 2006 (January 22-24) and 2008 (May 12-14) we engaged
      to its PERs) to ensure that       the services of Walker and Company to provide extensive fiscal
      Federal and match costs are       training. Participants received their own workbook as a quick
      reported correctly and that       desk-top reference. Applied exercises were a part of each
      subgrantees are monitoring        training and each workbook was 36-41 pages. Topics included,
      their matching costs to           fiscal reconciliation of PERs, capturing and reporting financial
      ensure that they will meet        match (all aspects), national audit findings, reporting in-kind
      their minimum requirements.       contributions, building strong budgets, building internal
                                        accounting systems, time and activity reporting, member
                                        eligibility, closing out fiscal years, preparing FSRs, reconciling
                                        the grant, etc.

                                        These requested topics for fiscal training were first identified by
                                        UMDHSA through its own annual monitoring site visits and then
                                        requested to be covered by Walker and Company.

                                        This item should be removed.


1g.   Works with UMCA to correct        1.g     UMDHSA is now reporting under the new CNCS FFR
      existing FSRs and to ensure       which replaced the former FSR. The new FFR reporting
      a firm understanding of           instructions provide much more detailed instructions for
      requirements so that the          completion than the former FSR. TA requests had been
      indirect cost information will    initiated and responded to regarding former submitted FSRs
      be reported properly when         through CNCS.
      UMCA starts using the
      Federal Financial Report          Clarification was provided to Clifton Gunderson regarding the
      (SF-425) in place of the          UMDHSA FSR Reports. There were no items of non-compliance
      current FSR.                      or fiscal weakness identified. We do not believe that is a
                                        systemic or on-going problem.

                                        This item should be removed.


1h.   Adequately reviews the            1.h.   UMDHSA will work collaboratively with our internal office
      Federal Financial Report,         of grants management and CNCS staff to effect any reporting
      formerly the FSR, for             changes or integrate any new instructions to ensure accurate
      reporting errors and takes        FFRs. FSRs/FFRs are reviewed and approved by the UMDHSA
      corrective action to address      grants management office.
      errors.
                                        This item should be removed.
Auditor Recommendations                               University of Maryland
                                             Department of Health Services Administration
                                                              Response

2a.    Resolve questioned match         2.a.   This is an isolated incident. Zuni staff did receive self-
        costs of $1,300.                attestation statements that members did perform service during
                                        the time periods questioned. This error, we believe, occurred
                                        as a result of program staff turnover. It was not a matter of non-
                                        service delivery to the client or false claims. The caregiver
                                        family did receive the service but it was not documented
                                        properly.

                                        These items were also identified by UMDHSA staff as part of its
                                        on-site Monitoring visit. The same is documented in our written
                                        reports.

                                        Due to on-going fiscal and program staff-turnover and
                                        consistent reporting problems (over a three year period)
                                        UMDHSA terminated the Zuni contract is April, 2009. Zuni staff
                                        were always well-intended and always provided UMDHSA staff
                                        verbal and written confirmation when documentation did not
                                        meet the assessed standard. Corrective action plans were
                                        written by Zuni, reviewed and approved by UMDHSA staff.
                                        However, repetitive staff turnover resulted in cycles of
                                        documented progress followed by cycles of relapsing file
                                        documentation.


 2b.   Ensure that UMCA revises         2.b    UMDHSA does require that the program supervisor or
       subgrantee procedures to         designee self-certify each month to the fiscal unit that member
       ensure that, prior to making a   specific service and training has occurred during the month
       member living allowance          and that payment is approved.
       payment, payroll staff has
       received written confirmation    A review of past UMDHSA Monitoring Reports documents this
       that the member has been         process as a checks and balance between program and fiscal
       enrolled.                        as fiscal only cuts the checks and must rely on program staff to
                                        validate accurate time and service logs/approval. This approval
                                        is based on the member time and service activity logs and then
                                        approved signed and dated by the member and supervisor. The
                                        documentation of this practice is referenced both on the
                                        UMDHSA Member Profile Documentation form as well as
                                        Project and Member’s Handbook, page 58 (Submitting Your
                                        Time Sheets and Service Logs). Member Profile Documentation
                                        form was revised in early 2009 to include two parts; Member
                                        Pre-Enrollment Check and Member End of Term Check List.
                                        The same was disseminated to all subaward grantees. A copy
                                        of the revised check-list has been sent to CNCS under separate
                                        cover.

                                        This item should be removed.


 2c.   We recommend that the                  2.c    The salary and member living allowance cost
       Corporation ensure that          breakdown and their fringe benefits are calculated on a Zuni
       UMCA determines whether          spreadsheet that is used to report the information on the PER.
Auditor Recommendations                           University of Maryland
                                         Department of Health Services Administration
                                                          Response
      Zuni made an appropriate      The correction to the over-expenditure in Section I of the PER to
      adjustment.                   Section II was made in PER for October 2008. The spreadsheet
                                    showing the cost breakdown was provided to Clifton
                                    Gunderson LLP on February 11, 2008 and again on March 16,
                                    2009 for their review. UMDHSA confirms that Zuni did make the
                                    appropriate adjustment therefore resolving this issue.


3a.   Closely scrutinize the        3.a     The incentive payments with the AAA in West Palm
      grantee-submitted budget to   Beach is an isolated incident. Prior to 2005-2006 the West Palm
      ensure that inappropriate     site always met its match requirements without including any
      costs are not included.       incentive money as match. The match money in question was
                                    provided by a local foundation to support member activities.
                                    All members were identified in the grant as without a living
                                    allowance.

                                    UMDHSA staff believed that as long as the match money was in
                                    direct support of the members (as provided through Walker and
                                    Company Training) that it would be an allowable match cost.

                                    Regarding the 2007-2008 questioned match amount of $35,261:
                                    This grant year was still open during the audit period. West
                                    Palm submitted a revised budget amendment to UMDHSA
                                    removing the "incentive" match in Section I., "other".
                                    Previously documented unclaimed "personnel/fringe" expenses
                                    and other items were increased to offset the cost. The total
                                    overall budgeted and contributed match met the required
                                    $46,613.00. Validation of the 2007-2008 contributed match is
                                    referenced in the final 3/21/09 PER submitted via WBRS.

                                    The West Palm Beach site now (Grant year 2008-2009) correctly
                                    shows the money from the foundation money as match under
                                    the "Living Allowance" line item versus "other". A copy of the
                                    West Palm Beach egrants 2008-2009 Budget is being sent to
                                    CNCS under separate cover that shows Member Living
                                    Allowances in the amount of $61,100.00. We did not understand
                                    the rule that no other incentive of any kind (gas cards, grocery
                                    gift certificates, etc.) could be granted to our members.

                                    UMDHSA subsequently requested written technical assistance
                                    from the CNCS grant office that provided additional
                                    clarification. While there are some "grey areas" in terms of
                                    what is considered an incentive, UMDHSA staff advised the
                                    West Palm office that all future members must receive an actual
                                    Living Allowance to avoid any appearance of conflict.

                                    All ten of the other Legacy Corps sites do provide a member
                                    Living Allowance and it is correctly documented in their budget
                                    and narrative.


3b.   Resolve questioned match      3.b   See response noted in Section 3.a above regarding 2007-
      costs of $40,583 and          2008 budget amendment and actual year-end contributed
Auditor Recommendations                              University of Maryland
                                            Department of Health Services Administration
                                                             Response
      determine whether other          match.
      unallowable incentive costs
      were charged to the grant        We are therefore requesting that the 2007-2008 $35,261 in
      over the entire grant period,    questioned 2007-2008 match be dismissed.
      and if so, resolve those
      costs.                           There is sufficient match to replace the outstanding amount for
                                       2006-2007, but since the records are closed we have no way to
                                       replace the match.


3c.   Ensure that UMCA                 3.c.   As referenced in 3.a. above, the issue with the AAA West
      strengthens its subgrantee       Palm Beach site is an isolated incidence. All other AmeriCorps
      requirement to comply with       sites are in full compliance with Member Living Allowances
      the AmeriCorps grant             meeting the federal requirements for match. Also noted under
      provisions related to member     3.a. was a UMDHSA staff directive clarifying "other member
      benefits.                        incentives." This will also be covered again in our National
                                       Direct Training that will be held January 21-23, 2010 in
                                       Scottsdale, Arizona as well as validated through the UMDHSA
                                       monitoring process that occurs annually for all AmeriCorps
                                       site.

                                       This item should be removed.


3d.   We recommend that the            3.d.    The AAA submitted an amended budget for 2007-2008
      Corporation resolve              (still active grant during the audit process) to remove the
      questioned Federal costs of      questioned amount of $376.93 in Section III. The amended
      $629 and recover any             WBRS 2007-2008 budget amendment is being sent to CNCS
      disallowed costs. In addition,   under separate cover that confirms that the West Palm Beach
      the Corporation should           site actually reduced Section III. Administrative cost down to
      ensure that UMCA                 $1,770.00; far below the allowable amount that could be
      establishes controls to verify   claimed. This is also validated on their year-end 3/31/09 PER
      that subgrantees’                also referenced in WBRS.
      administrative costs are
      properly calculated and          The 2007-2008 questioned amount of $376.93 should be
      reported.                        dismissed.

                                       The grant year for 2006-2007 has closed and the amount
                                       identified ($252) cannot be recouped or reallocated. The overall
                                       amount claimed for both years was correctly computed (overall
                                       administrative match). It was only the allocation of that amount
                                       between the grantee and CNCS that was incorrectly computed.
                                       This one-time error should not occur in the future.
                                        
                                       UMDHSA does have internal controls to calculate the
                                       Administrative Costs that are allowed in Section III. The
                                       instructions for the administrative calculation are set forth in
                                       the CNCS and UMDHSA annual budget instructions (e.g, 10%
                                       versus .0526%). The error was limited to be being posted in the
                                       wrong column in the budget, not an incorrect amount.
                                       Administrative costs are part of the minimum fiscal standards
                                       in the UMDHSA Monitoring Tool and are assessed on site.
Auditor Recommendations                               University of Maryland
                                             Department of Health Services Administration
                                                              Response

3e.   We recommend that the             Zuni agrees that they did incorrectly charge the AmeriCorps
      Corporation resolve the           Grant $250 for Registration Fee to attend the National Indian
      Federal questioned cost of        Council Biennial Conference. This error is attributed to fiscal
      $250.                             staff turnover. The new accountant did not go back and check
                                        previously submitted PERs.

                                        The Zuni attendee did informally share about the AmeriCorps
                                        Program (table top forums) while attending but was not
                                        officially in the Program Guide.

                                        This was a clerical error and we believe that this cost should be
                                        dismissed. Note: Zuni is no longer a subgrantee within the
                                        UMDHSA portfolio of programs.


4.    We recommend that the             4.     UMDHSA has a strong internal review process for
      Corporation ensure that           prospective subward grantees to ensure that CNCS and federal
      UMCA revises the                  regulations are met. Audit staff did not review all of the
      “Subrecipient Profile” form to:   UMDHSA requirements for subaward grantees. The review
                                        process has two levels.
          request the policies
           and procedures to            The first level is conducted by UMDHSA program staff through
           verify that they do exist;   a check-list (program and fiscal) and narrative process that was
          explain how the              revised in 2008. UMDHSA Policy #005 and is being sent to
           subrecipient will meet       CNCS under separate cover.
           the requirement; and
          address the financial        The University of Maryland also has three other internal tools
           reporting and budget         that must be applied before a new subaward recipient is
           control requirements.        approved.    These tools include the "Subrecipient Profile,
                                        Monitoring of Subrecipients, and Subrecipients Subject to A-
                                        133 Audits. A separate review committee at UM convenes to
                                        review subrecipient documentation prior to any issuance of
                                        contracts.

                                        This item should be removed.


5a.   We recommend that the
      Corporation resolve the           5.a     The AAA West Palm site is 100 percent Hispanic. Most
      questioned education award        of these individuals are either non-speaking or limited speaking
      of $1,250. In addition, we        English skills. The individual in question left the program to go
      recommend that the                back to Cuba and has never used her Education Award. The
      Corporation ensure that           financial Living Allowance was her primary interest as well as to
      UMCA monitors subgrantee          learn new work skills for future employment. A new staff
      compliance with UMCA’s            member was on-board and accepted the expired work visa
      procedure on “Member Files”       indicating a lawful permanent resident alien of the United
      to verify and document that       States. We know this was not the case. The AAA processed
      all eligibility requirements      the application in good faith with no attempt to misrepresent or
      have been met.                    to facilitate enrollment of a non-eligible individual into
                                        AmeriCorps. An internal corrective action was instituted at the
                                        AAA requiring a supervisor review of all member application
Auditor Recommendations                           University of Maryland
                                         Department of Health Services Administration
                                                          Response
                                    materials prior to enrollment. Corrective action response was
                                    reviewed by UMDHSA and approved. Specific training was
                                    required for all AAA staff regarding acceptable proof of
                                    citizenship documentation for all applicants with a particular
                                    emphasis on INS documentation.

                                    This was an isolated incident of one file out of 23 reviewed. As
                                    this individual now resides in Cuba we ask that this item be
                                    dismissed.

                                    UMDHSA does have an in-place practice adhered to by all
                                    subaward grantees. A sign-off sheet (Member Profile
                                    Documentation) that is to be completed on each member and
                                    signed off by the supervisor certifying that all eligibility
                                    requirements and documents have been secured. This
                                    document was revised in 2008 building in additional elements
                                    to ensure full compliance with federal regulations.
                                    Additionally the issues of eligibility and member file
                                    documentation has been addressed in two UMDHSA
                                    Conference Calls (sections titled Member File Documentation—
                                    Member Enrollment Form & Member Profile Documentation
                                    Forms and Monthly Reports). The first conference call was May
                                    9, 2002 and the second call on April 22, 2003. Actual
                                    Conference call minutes are available for review. Another
                                    check is referenced in the WBRS/AmeriCorps Portal Enrollment
                                    Form that requires both member and staff certification
                                    regarding eligibility requirements. This is an isolated incident
                                    representing one member file.


5b.   Resolve questioned costs of   5.b.    Seven of the members in question (3-AAA; 4-Zuni) did
      $5,110 Federal, $13,750 in    have National Sex Offender Public Records search completed in
      education awards and          the file. At the time of the background check, one state was not
      recover any disallowed        reporting. The completed checks were placed in the Member
      costs.                        Files. The CNCS regulations do not say that if one or more
                                    states are not reporting that additional checks must be
                                    repeatedly done until such time all states have reported. We
                                    confirmed this with our CNCS Program Officer in June of 2009.
                                    These members files in question are in compliance with CNCS
                                    regulations. Note: Both sites did go back and run second
                                    reports showing the missing state in question. This
                                    recommendation and these costs should be dismissed.

                                    Zuni staff had conducted Tribal Criminal Background checks
                                    but not State Criminal checks. The reason for this error was a
                                    change in staff for the AmeriCorps Program. All other Zuni
                                    employees are only required to have a Tribal check and the new
                                    staff member assumed it was the same for AmeriCorps
                                    Members. Upon learning of this error, Zuni ran State Criminal
                                    Background Checks and National Sex Offender checks on all
                                    the members in question. All came back clean and were placed
                                    in the respective Member Files. This was a one-time incident.
                                    Also note that the Zuni subaward was terminated in April of
Auditor Recommendations                            University of Maryland
                                          Department of Health Services Administration
                                                           Response
                                     2009. We request these costs be dismissed.


5c.   Ensure that UMCA               5.c.   UMDHSA has updated its 2007 Criminal Background and
      strengthens its monitoring     National Sex Offender policy reflecting the latest guidance from
      efforts to ascertain           CNCS and federal regulations. This UMDHSA four page policy
      subgrantee compliance with     (Policy #007-ADM) was revised and disseminated to our
      UMCA’s “Criminal               subaward grantees. UMDHSA Policy #007 is being sent to
      Background and National        CNCS under separate cover.
      Sex Offender Public Registry
      Checks” and “Member Files”   UMDHSA has an exceptional Monitoring Process and Tool in
      procedures that requires     place. State Criminal Background Checks and the NSOPR are
      certification that:          assessed through a random sample of member files during
                                   each site visit. Our internal reports will note several corrective
       a. State criminal registry actions for missing or incomplete checks. Subaward sites must
          check was conducted also complete the UMDHSA Member Profile Documentation
          and documented on the Checklist form prior to member enrollment which includes the
          member; and              State Criminal Background Check and NSOPR. This
                                   recommendation is requested to be dismissed.
       b. National Sex Offender
          search addressing all
          50 states, as well as
          Guam, Puerto Rico,
          and the District of
          Columbia was
          conducted and
          documented either in
          the member’s file or the
          file refers to the
          location of such
          information as
          appropriate.
Auditor Recommendations                            University of Maryland
                                          Department of Health Services Administration
                                                           Response
                                     The member contract for the group of nine members was
5.d   We recommend that the          originally executed during the enrollment period along with
      Corporation ensure that        other documents. However, an internal routine review of
      UMCA revises its procedures    members’ files in October 2007 revealed that the contract
      and the contract template      contained an incorrect term year, as well as enrollment and
      that the subgrantees use to    completion dates. During this time there had been a
      note that the actual service   realignment of staff responsibilities. Staff then reissued a
      term for the potential         replacement contract for members to sign. Staff felt it was
      member cannot start until      unethical for members to backdate the second (replacement)
      after it is signed by the      contract to the original enrollment date and therefore the
      member.                        second replacement contract signature date is 6-7 months after
                                     the original enrollment date.

                                     AAA staff recognizes the importance of policy and procedure
                                     with regard to having documentation prior to member
                                     enrollment and have instituted their own internal corrective
                                     action steps to ensure that contract templates are accurate and
                                     that all documents are executed prior to official enrollment.
                                     UMDHSA staff monitored the AAA site in May of 2009, randomly
                                     selecting member files for full documentation and found no
                                     incidences of non-compliance (i.e., member contract start and
                                     end dates).

                                     The UMDHSA member contract template already provides for a
                                     contract start and end date. Project directors at all subaward
                                     sites are aware that member hours (service and training) do not
                                     count until the after the date the contract is signed and dated by
                                     both the member and supervisor. The UMDHSA practice is also
                                     restated on page 28 of its Project Director and Member
                                     Handbook. “The contract must be signed and dated by both the
                                     member and supervisor before services and/or training
                                     commences. Compliance with this and CNCS regulations is a
                                     part our on-site annual Monitoring. We request that this
                                     recommendation be dismissed.  


5e.   Resolve the $13,750 in         5e.   The AAA-West Palm Beach electronically submitted a
      questioned education           PDF of members’ time sheets to Clifton Gunderson for review
      awards and recover any         on March 4, 2009. These files were not reviewed by the auditors.
      disallowed costs.              A reconciliation of the questioned member time sheets was
                                     conducted as recommended by Clifton Gunderson. The
                                     reconciliation noted the following:

                                     Sample 1 W/P Ref. 0842a: Pershad, Audrey - For Program Year
                                     2005-2006, Audrey Pershad hrs. were recorded in WBRS as
                                     470.5. Audrey was enrolled 05/03/2006 and completed her term
                                     03/31/2007. The timesheets added individually total 544.5.
                                     Months and hrs. accomplished include:

                                     May 2006 - 36.5 hrs.
                                     June 2006 - 294 hrs.
                                     July 2006 - 41 hrs.
                                     August 2006 - 40.5
Auditor Recommendations                 University of Maryland
                               Department of Health Services Administration
                                                Response
                          Oct. 2006 - 45 hrs.
                          Jan. 2007 - 40.5 hrs.
                          Mar. 2007 - 47 hrs.

                          At a minimum, 450 hours are supported through authenticated
                          approved time sheets, for approved service. These hours were
                          attested to by the Program Director and available for review. The
                          questioned cost of $1,250 should be dismissed.

                          Sample 4: W/P Ref. 0842d Lopez, Graciela – May 06 – Dec. 06,
                          Jan 07-May 07, and Mar 08-Earned award. Timesheets were
                          located and reconciled to WBRS. There is a difference of 7
                          hours, however the member still had documented minimum of
                          800 hours and is therefore eligible for the Educational Award.
                          The questioned cost of $1,250 should be dismissed.

                          Sample 5 W/P Ref. 0842e Medina, Elsa – May 06 – Sept 06, Nov
                          06-Dec. 06. Missing timesheets found and reconciled to WBRS
                          for a total of 701 hours. The Member is eligible for the
                          Educational Award. The questioned cost of $1,250 should be
                          dismissed.

                          Sample 6 W/P Ref. 0842f Sedeno, Norma – June 06, July 06,
                          Sept 06-Dec 06. Missing member timesheets were found and
                          reconciled to WBRS for a total of 783 hours. Member is eligible
                          for Educational Award and therefore the questioned cost of
                          $1,250 should be dismissed.

                          Sample 7 W/P Ref. 0842g Sosa, Erenia – May 06 –Dec 06, April
                          07. WBRS reflects 1,004 hours and timesheets shows 1,049
                          hours. Could not adjust WBRS as records were closed.
                          However, member still achieved over 450 and is eligible for the
                          Educational Award. The questioned costs of $1,250 should be
                          dismissed.

                          Summary: The cumulative questioned Educational Award costs
                          of $6,250 has been resolved and should be dismissed.

                          Regarding Zuni:

                          For Zuni, the continuous (almost every six months) turnover of
                          program staff contributed to breaks in the member client
                          records. It was subsequently verified through self-attestation of
                          members and staff that service was performed. Attestation
                          statement from Zuni is attached. Language barriers and written
                          skills of the tribal members also contributed to the gaps in file
                          documentation. Historically, Zuni members far exceed the
                          required 450 hours of service. Past UMDHSA Monitoring
                          Reports will validate the continuous corrective actions required
                          of Zuni staff to obtain the correct documentation of service and
                          training hours. This effort was thwarted through frequent staff
                          turnover.
Auditor Recommendations                            University of Maryland
                                          Department of Health Services Administration
                                                           Response
                                     Based on the Zuni's member specific affidavit statements, we
                                     are requesting that the questioned Educational Award amount
                                     of $7,500 be dismissed. Affidavits were sent to CNCS under
                                     separate cover.

                                     Note: The Zuni subaward contract was terminated by UMDHSA
                                     in April of 2009 after two years plus of coaching and corrective
                                     action plans.


5f.   Ensure that UMCA increases     5.f.   UMDHSA continuously assesses and reconciles Member
      the scope of its review when   Service and Training hours reported at the subgrantee level in
      discrepancies are noted        WBRS/On Corps which determines the Educational Award.
      between the timesheets and     This assessment is noted in every UMDHSA Monitoring Report
      the hours reported in WBRS     throughout the year with corrective actions noted for internal
      for all the members being      reconciliation. We take this aspect very seriously and fully
      tested to determine if such    understand the requirements needed to document an
      errors are one-time            educational award.
      occurrences or a continual
      problem and address the        This reconciliation occurs monthly before the hours are entered
      discrepancies.                 to WBRS/OnCorps. That is, only the hours that meet the
                                     fundamental requirements (e.g., signed & dated
                                     member/supervisor service/training activity logs showing actual
                                     service rendered and/or training attended) is considered a valid
                                     document and must be accounted for before entry into
                                     WBRS/OnCorps.

                                     Additionally, UMCA has stated it’s requirement for Member and
                                     Supervisor sign-off in the Project Director’s and Member
                                     Handbook, page 58 (Submitting Your Time Sheets and Service
                                     Logs).

                                     When a subaward site has multiple non-compliance findings,
                                     additional desk-top audits are performed to ensure program
                                     compliance. UMDHSA monitor findings in advance of the OIG
                                     Audit had also documented the same with corrective actions
                                     already in place.


                                     5g.    The AAA-West Palm Beach site has corrected the
5g.   Resolve questioned             omission of supervisory signature on those time sheets in
      education award costs in the   question. An earlier edition of the English language version
      amount of $1,250 and           (90% of their member are only Spanish speaking) of the time
      recover any disallowed         sheet used in 2006 did not include a column for members to list
      costs.                         specific activities performed on a daily basis or to print the
                                     name of the client being served. In 2007 the English version
                                     was revised to provide more detailed information—section for
                                     printed client name and column for daily activities performed.
                                     Also, forms are now in Spanish so that members can recognize
                                     and understand the program requirements.

                                     Zuni staff has obtained self-attestation statements from the
                                     caregiver that services were performed even though the
Auditor Recommendations                              University of Maryland
                                            Department of Health Services Administration
                                                             Response
                                       member record was inconsistent. The Zuni Member Service
                                       Log form was also revised form to include the physical address,
                                       place of service and name of caregiver. Time sheets were
                                       subsequently signed by staff as attested to by the caregiver.
                                       Note: The Zuni contract was terminated in April of 2009.


5h.   Ensure       that     UMCA       5h.    UMDHSA does require that the program supervisor or
      strengthens the monitoring of    designee self-certify each month to the fiscal unit that service
      its subgrantees to ascertain     and or training has occurred during the month and that
      that:                            payment is approved. This "checks-and-balances
                                       documentation may be done via email or hard copy.
       a. member             living
          allowance      payments
                               A review of past UMDHSA Monitoring Reports documents this
          are not made without action between program and fiscal as fiscal only cuts the
          verifying    that     the
                               checks and must rely on program staff for approval. This
          timesheet has been   approval is based on the Member Time and Service Activity
          signed and dated by  logs and then approved signed and dated by the member and
          the member and the   supervisor. UMDHSA also states the requirements for Member
          supervisor, and      and Supervisor sign-off and dating on page 58 (What
                               constitutes a Completed time Sheet?) of the Project Director
       b. member files contain and Member Handbook.
          evidence of the work UMDHSA was aware of this issue with both of the sites in
          performed and the question and had also identified these issues in their respective
          client served.       reports. This is not an issue with our 9 other subaward sites.


                                       UMHDSA does monitor and assess the consistent payment of
5i.   We recommend that the            member living allowances during each of its annual site
      Corporation ensure UMCA          assessment visits. Member files are randomly pulled that
      strengthens its monitoring       include their member time and activity logs that are then
      efforts on subgrantee            verified against the member living allowance.
      compliance to ensure that
      member living allowance          Documentation of this practice can be verified in the UMDHSA
      payments are paid                Monitoring Reports. This was an isolated incident specific to
      consistently and in              Zuni and should not be globalized to the other ten sites Note:
      accordance with the              Zuni was terminated as a subaward grantee with UMDHSA in
      AmeriCorps grant provisions.     April, 2009. 


5j.   We recommend that the            5.j     Although Zuni did not properly deduct FICA taxes from
      Corporation ensure UMCA          member living allowances, Zuni immediately corrected their
      provides      the    necessary   procedures as soon as Zuni became aware of the requirement.
      training to its subgrantees on   Zuni issued 1099s to the members prior to FICA deductions;
      grants provision related to      and copies of the 1099s were provided as documentation to
      member allowances.          In   Clifton Gunderson LLP on February 26, 2009. Therefore, Zuni is
      addition, the Corporation        disputing the fact that no documentation was provided to them.
      should ensure that UMCA          The dispute was relayed to them on March 16, 2009 but Zuni did
      reviews Zuni’s records to        not received a response. This is an isolated incident and not
      determine the amount of          reflective of our ten other sites.
      member living allowances
      paid     for     which   FICA    The requirement to pay member FICA and Worksmen’s
      deduction expenses were not      Compensation is set forth in the annual CNCS and UMDHSA
Auditor Recommendations                             University of Maryland
                                           Department of Health Services Administration
                                                            Response
      made and ensure that Zuni       grantee application instructions. This error occurred during the
      works with the IRS to           transition from private foundation money to integration into the
      determine what corrective       AmeriCorps Program which changed the member's status from
      action should be taken.         a 1099 to paying FICA under AmeriCorps. Under their previous
                                      non-AmeriCorps contract the only requirement was to issue
                                      1099s.

                                      Zuni does now pay FICA on AmeriCorps Members. UMDHSA
                                      had already noted this item in its own on-site Monitoring and
                                      had also recommended that Zuni should work with the IRS to
                                      determine a correct course of action for those members whose
                                      FICA was not paid as it may have some impact on the member
                                      and their previous tax filings. The subaward contract with Zuni
                                      was terminated by UMDHSA in April, 2009.


                                      6.a. 6.b       UMDHSA does have a standard in its Monitoring
6a.   Verify that UMCA                Tool regarding time frame for entry in the WBRS (now
      strengthens its subgrantee      AmeriCorps Portal), Exit Forms and Change of Status. These
      monitoring to ensure that the   items are assessed during each site visit through random
      member contract is in place     samples. Documentation of implementation can be referenced
      prior to enrolling the member   from existing monitoring reports. Additionally, UMDHSA staff
      and entering information into   also generates an internal report (instituted in 2008) that shows
      WBRS or other Corporation       enroll dates and exit dates. UMDHSA has also revised its
      systems.                        Member Profile Documentation Form into two parts that
                                      requires the Program Supervisor to sign off on the form which
                                      includes assurance that enrollment (Part I) and End of Term
                                      (Part II) has been completed with the required timeframes.
                                      Documents were provided to Clifton Gunderson with our March
                                      23, 2009 Response.


                                                        See Response noted above
6b.   Verify that UMCA
      strengthens its subgrantee
      monitoring to ensure that
      Enrollment, Change of
      Status and Exit/End-of-Term-
      of-Service forms are
      processed and approved in
      WBRS or other Corporation
      systems within 30 days of
      when the event occurs.
Auditor Recommendations                            University of Maryland
                                          Department of Health Services Administration
                                                           Response
7a.   Resolve questioned             Member Evaluations are a requirement for all subaward
      education award costs,         grantees. The same is assessed annually through the
      totaling $8,750, and recover   UMDHSA Technical Assistance Site Assessment Monitoring
      any disallowed costs.          Tool which includes both mid-term and end-of-term evaluations.
                                     Our current practice as noted on our UMDHSA Member
                                     Evaluation Form states that the mid-term and thereafter annual
                                     evaluation is to be completed on each member. A favorable
                                     completed evaluation must also be on file before a member can
                                     serve a second time.

                                     The Evaluation process is also outlined on page 44 of the
                                     Project Director and Member Handbook under “Performance
                                     Evaluations” ("As a new member you will have a six month
                                     evaluation and then annually thereafter including End of
                                     Term..).

                                     The issue of end-of-term member evaluations were also
                                     addressed in the UMDHSA Conference Call on March 6, 2008
                                     under the section titled “Member/Program Evaluation
                                     Instruments”. Minutes of this meeting are on file at UMDHSA.
                                     UMDHSA requirements are also referenced on the Member
                                     Profile Documentation form (recently revised for better clarity).
                                     To further strengthen our process, we have now recommended
                                     to our sites that the final member living allowance check be
                                     withheld until the member end-of-term evaluation is completed.

                                     There was no intent by either agency to circumvent the End of
                                     Term Member Evaluation. These sites misinterpreted the
                                     UMDHSA policy. These members were in good standing with
                                     the grantee as referenced in their mid-term evaluations and
                                     were thus invited back to serve a second term.

                                     The issue of End of Term Evaluations has been resolved and all
                                     members completing their 2007-2008 did have an End of Term
                                     Evaluation. This has been validated in the May 2009 UMDHSA
                                     on-site Monitoring Visit.

                                     Since all members in question exceeded the required 450 hours
                                     and were in good standing with the AmeriCorps program at
                                     mid-term, we therefore request that the questioned cost of
                                     $8,750 be dismissed.


7b.   Ensure       that      UMCA See justification and response referenced in item 7a.
      strengthens its subgrantee
      monitoring to make certain
      end-of-term evaluations are
      conducted        prior     to
      submitting/entering       the
      Exit/End-of-Term-of-Service
      forms into WBRS or other
      Corporation systems.
  Auditor Recommendations                             University of Maryland
                                             Department of Health Services Administration
                                                              Response

                                        The AAA-West Palm Beach conducted orientation consistent
   7c.   We recommend that the          with the policies and procedures set forth by UMDHSA. The
         Corporation ensure that        Member training files from 2005-2006 term year, which included
         UMCA strengthens its           agenda and sign-in sheets for orientation, and all other training
         subgrantee monitoring          were lost during two moves that the AAA experienced in Spring
         related to member              of 2008. This especially affected members who were second
         orientation.                   term members and who had orientation during their first year
                                        (first term) of service in 2005-2006.

                                        Zuni did provide orientation training but lacked member sign-in
                                        sheets. Zuni subsequently developed a new sign in sheet to
                                        track and document all members receiving orientation training.
                                        A self-attestation form for each member will be signed and
                                        dated by the member and filed in their respective folder.

                                        UMDHSA does require orientation of all AmeriCorps members.
                                        This practice is outlined in the Project Director and Member
                                        Handbook. A fully documented orientation (or any training) is
                                        only valid with a training agenda showing the date and topics of
                                        training and a member sign-in sheet. This practice is assessed
                                        through our annual site visits using the UMDHSA Technical
                                        Assistance Site Assessment Monitoring Tool.

                                        This recommendation is requested to be dismissed.



 
C:\Users\Jack Steele\Documents\myfiles2\Americorps\monitor\OIG\UM‐OIG Response‐9‐09.docx 
ATTACHMENT II: CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               RESPONSE TO DRAFT REPORT
                              NATIONAL&:
                              COMMUNITY
                              SERVICEttt't

To:           Stuart Axenfe1d, Inspector General for Audit                    •   ,,oI~;
From:         Margaret Rosenberry, Director of Grants Managemen~ I
                                                                    !l.~0cJtjw
                                                                          '
                                                                                       r
Date:         September 11, 2009

Subject:      Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
              University of Maryland Council on Aging


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grants awarded to University of Maryland Council on
Aging (UMCA). We will work with UMCA to ensure its corrective action plan adequately
addresses the findings and recommendations. We will respond with the management decision
after we have reviewed the audit working papers and the corrective action plan.

Cc:     William Anderson, Acting Chief Financial Officer
        Frank Trinity, General Counsel
        Lois Nembhard, Acting Director of AmeriCorps National
        Sherry Blue, Audit Resolution Coordinator
